                                         December 28, 2012


The Honorable Sam Johnson
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

The enclosed report addresses your August 2, 2012 letter, asking that we review the current
Memorandum of Understanding (MoU) between the General Services Administration (GSA) and
Social Security Administration (SSA), and determine what critical elements are not clear or are
missing, including but not limited to the following.

1. Who has responsibility for paying utilities, maintenance, etc.

2. Whether SSA pays rent and if so, what costs the rent covers for the buildings that SSA
   purchased and has delegated authority to manage.

3. Whether SSA always pays rent for buildings purchased from Trust Funds assets.

4. Whether the MoU differentiates between rent for Trust Funds buildings, rent for other
   federally-owned buildings, and buildings rented on the open market.

5. Whether the definitions of rent, assets, depreciation, and sale of properties are clearly
   articulated.

6. Whether the accounting process that GSA and SSA follow for property purchased with Trust
   Funds is clearly set forth.

7. Whether GSA will return funds obtained from the disposal of properties purchased from Trust
   Fund assets to the Trust Funds.

8. Whether SSA only pays for services GSA provides, such as maintenance and security.

9. Whether there is a clear statement on how services and actual costs are calculated.

10. How long the above practices have been in place.

11. Whether the rent paid by SSA contributes to the Federal Buildings Trust Fund and if so,
    whether the contributions are earmarked for SSA or can be used by any Federal agency.

              WEB: OIG.SSA.GOV | FACEBOOK: OIGSSA | TWITTER: @THESSAOIG | YOUTUBE: THESSAOIG
                        6401 SECURITY BOULEVARD | BALTIMORE, MD 21235-0001
Page 2 - The Honorable Sam Johnson


You also stated, because Social Security programs, including their administrative funds, are
financed primarily through payroll taxes paid by workers and their employers, you would also
appreciate my opinion regarding what actions are needed to ensure workers' hard-earned payroll
tax dollars are being used as intended in the Social Security Act.

My office is committed to combating fraud, waste, and abuse in SSA’s operations and programs.
Thank you for bringing your concerns to my attention. The report highlights various facts
pertaining to the issues raised in your letter. To ensure SSA is aware of the information provided
to your office, we are forwarding a copy of this report to the Agency.

If you have any questions concerning this matter, please call me or have your staff contact
Misha Kelly, Special Agent-in-Charge of Congressional Affairs, at (202) 358-6319.

                                             Sincerely,




                                             Patrick P. O’Carroll, Jr.
                                             Inspector General

Enclosure

cc:
Michael J. Astrue
   CONGRESSIONAL RESPONSE
          REPORT
          Memorandum of Understanding
Between the General Services Administration and the
Social Security Administration for Space and Service

                  A-15-13-23043




                  December 2012
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                    Executive Summary
OBJECTIVE
Our objective was to determine what critical elements are not clear or are missing from
the April 2003 Memorandum of Understanding (MoU) between the General Services
Administration (GSA) and Social Security Administration (SSA).

BACKGROUND
GSA is deemed the Government’s landlord because it provides the Government office
and other workspace services. GSA’s Public Buildings Service (PBS) acquires space
on behalf of the civilian sector of the Government through new construction and leasing,
and acts as a caretaker for Federal properties nationwide. PBS owns or leases 9,624
assets, maintains an inventory of more than 370.2 million square feet of workspace for
1.1 million Federal employees, and preserves more than 481 historic properties. PBS is
funded primarily through the Federal Buildings Fund (FBF), 1 which is supported by rent
from Federal customer agencies.

SSA leases approximately 29 million square feet of space from GSA to conduct its
business operations at its Headquarters and regional/field offices. A MoU, with a period
of performance from FYs 2004 through 2013, sets forth the agreement for payment into
the FBF for space and services provided by GSA to SSA. For more information on the
MoU, refer to Appendix C, Memorandum of Understanding.

Our period of performance for this review was FYs 2007 through 2011. GSA’s rental
costs charged to SSA for FYs 2007 through 2011 are as follows.




1
  FBF means the GSA fund into which rent charges and other revenues are deposited, and collections
cited in section 210(j) of the Federal Property and Administrative Services Act of 1949, as amended
(U.S.C. 490(j)), and from which monies are available for expenditures for real property management and
related activities in such amounts as are specified in annual appropriations acts without regard to FY
limitations.


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                       i
                      Total Cost Paid by SSA for FYs 2007 Through 2011
                                                            Operation &
           SSA Annual          Capital                      Maintenance
                Rent       Improvement     Total Rental       Costs for
           Expense for      Fee for All    Costs for All     Delegated
           All Buildings     Buildings    Buildings Paid Buildings Paid                      Total Costs
   FY      Paid to GSA Paid to GSA            to GSA           by SSA                        Paid by SSA
              (Note 1)        (Note 2)                        (Note 3)
 2007      $558,085,595       $1,312,013    $559,397,608      $59,506,115                    $618,903,723
 2008       602,274,057         1,132,304   $603,406,361       59,604,158                    $663,010,519
 2009       619,258,599         1,080,863   $620,339,462       64,537,151                    $684,876,613
 2010       655,271,321           734,260   $656,005,581       58,992,354                    $714,997,935
 2011       678,962,133           505,928   $679,468,061       87,920,804                    $767,388,865
 1. Rent Expense includes, but is not limited to, repair and alteration, rental, real estate tax, protection,
 operation and maintenance (O&M), general and administrative (G&A), depreciation, Public Building fee
 and other costs.

 2. Capital Improvement Fee – For capitalized projects funded through the FBF, SSA will pay GSA a
 capital improvement fee based on SSA’s Trust Fund share of the building’s total depreciation times the
 Department of the Treasury’s Federal Financing Bank rate as of the last day of the FY.

 3. O&M Costs for Delegated Buildings include SSA’s O&M costs separate from the O&M costs in GSA
 rent expense.

In addition to the total rental costs for all buildings paid to GSA by SSA, SSA paid O&M
costs for delegated buildings. Delegated buildings are those that GSA has given SSA
the authority to operate and maintain, which currently consist of 18 buildings. SSA pays
O&M costs separate from GSA’s monthly rent bill.

In an August 2, 2012 letter, the House Committee on Ways and Means requested our
assistance in determining what critical elements are not clear or are missing from the
April 2003 MoU between GSA and SSA.

RESULTS OF REVIEW
Based on our understanding of the rental process and inquiries with GSA and SSA, we
aggregated the information to respond to the congressional concerns. As a result, we
determined that critical elements are not clear or are missing from the April 2003 MoU
between the GSA and SSA.

CONCLUSIONS
During the course of our review, we also identified actions we believe are necessary to
ensure workers' hard-earned payroll tax dollars are being used as intended in the Social
Security Act. These actions consist of legislation to:

   •    Provide for the return to the SSA Trust Fund of proceeds obtained from the
        disposal of property purchased with SSA Trust Fund assets, to the Trust Fund to


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                              ii
          ensure SSA uses workers hard-earned payroll tax dollars as intended by the
          Social Security Act.
      •   Reduce or eliminate indirect costs and fees paid to GSA for Trust Fund and/or
          delegated buildings.
      •   Ensure SSA does not pay expenses (for example, rent or GSA administrative
          costs) to GSA for the new data center for which SSA was directly appropriated
          funding.

Also, we believe the terms and conditions in the current MoU should remain in use and,
at a minimum, GSA and SSA’s new MoU should incorporate the following provisions.

      1. Enumerating the accounting treatment of Trust Fund properties.
      2. Permitting SSA or SSA OIG to perform a detailed review of any actual building
         costs (at its discretion).
      3. Setting forth a detailed description and example of the year-end reconciliation
         process.
      4. Specifying all the information required for interagency agreements, as set forth in
         SSA’s Administrative Instructions Manual System (AIMS) 2.




2
    AIMS, Financial Management Manual (FMM), 05.01.06A, 1/24/2011.


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                              iii
                                                                         Table of Contents
INTRODUCTION ..................................................................................................... 1
RESULTS OF REVIEW .......................................................................................... 5
Congressional Questions ........................................................................................ 5
Other Matters ........................................................................................................ 14
  • Other Federal Agencies’ Memorandums of Understanding ............................ 14
  • Social Security Administration Policy on Memorandums of
    Understanding ................................................................................................ 15
CONCLUSIONS .................................................................................................... 16
APPENDICES
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Memorandum of Understanding
APPENDIX D – General Services Administration Rental Bills and Year-End
             Reconciliation Process
APPENDIX E – General Services Administration Treatment of the New Data Center
             (Currently Under Construction)
APPENDIX F – Building Types
APPENDIX G – Social Security Administration Trust Fund Buildings Expenses – Fiscal
             Years 2008 to 2011
APPENDIX H – Inventory of Remaining Trust Fund Buildings
APPENDIX I – Inventory of Disposed Trust Fund Buildings
APPENDIX J – Social Security Administration Rental Costs by Property Type – Fiscal
             Years 2007 to 2011
APPENDIX K – Social Security Administration Delegated Buildings
APPENDIX L – Social Security Administration Delegated Buildings Expenses – Fiscal
             Years 2008 to 2011
APPENDIX M – Sample Rent on the Web Bills




MoU Between GSA and SSA for Space and Service (A-15-13-23043)
                                                                         Introduction
OBJECTIVE
Our objective was to determine what critical elements are not clear or are missing from
the April 2003 Memorandum of Understanding (MoU) between General Services
Administration (GSA) and Social Security Administration (SSA).

BACKGROUND
GSA

GSA is deemed the Government’s landlord because it provides the Government office
and other workspace services. GSA’s Public Buildings Service (PBS) acquires space
on behalf of the civilian sector of the Government through new construction and leasing,
and acts as a caretaker for Federal properties nationwide. PBS owns or leases
9,624 assets, maintains an inventory of more than 370.2 million square feet of
workspace for 1.1 million Federal employees, and preserves more than 481 historic
properties. PBS is funded primarily through the Federal Buildings Fund (FBF), 1 which
is supported by rent from Federal customer agencies.

In response to our review, GSA provided additional background information. GSA
stated,

       No individual agency can claim "ownership" of federal real property as title to
       all federal real property is held in the name of the United States of America.
       Each federal landholding agency that has authority to hold real estate
       maintains "custody and accountability" of the real property in its inventory.
       GSA is the federal agency with exclusive authority to construct public
       buildings, 40 U.S.C. 3302, which means any "building, whether for single or
       multitenant occupancy, and its grounds, approaches, and appurtenances,
       which is generally suitable for use as office or storage space or both by one or
       more federal agencies," 40 U.S.C. 3301(a)(5)(A). The source of the funds for
       these projects does not alter GSA's authority and responsibility for buildings
       constructed or acquired under subtitle II - Public Buildings and Works of title
       40 of the United States Code. GSA's unique status as the federal agency with
       exclusive jurisdiction, custody and control of public buildings outside of the
       District of Columbia and outside of military reservations and in the District of
       Columbia, except for those buildings and grounds otherwise provided for by
       law, is codified at 40 U.S.C. 3101 and 8101, respectively. In addition to the
       statutory authorities cited above, GSA has a number of other authorities upon

1
  FBF means the GSA fund into which rent charges and other revenues are deposited, and collections
cited in section 210(j) of the Federal Property and Administrative Services Act of 1949, as amended
(U.S.C. 490(j)), and from which monies are available for expenditures for real property management and
related activities in such amounts as are specified in annual appropriations acts without regard to FY
limitations.


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                            1
        which it relies to operate and maintain federal real property, including the 1950
        Reorganization Plan No. 18 (codified at 40 U.S.C. 301 note), and 40 U.S.C.
        581(c), (d) and (g), 582(b), 584, 585(a) and (c), 586(b), 592, 3303, 3304,
        3305, 3306, and 3307.

Before Fiscal Year (FY) 2005, GSA also provided law enforcement and security
services for these buildings. The Federal Protective Service (FPS) within the
Department of Homeland Security (DHS) has assumed this responsibility and provides
these services. GSA stated, “. . . However, there can be GSA security items which are
separate capital investments in a property. These are separately priced, identified in
the Occupancy Agreement and when funded by PBS/GSA, are charged to tenant
agencies on the PBS Rent Bill as a ‘Building Specific Amortized Capital Charge’. This
explains why there would be security charges on the GSA Rent Bill.”

SSA

SSA leases approximately 29 million square feet of space from GSA to conduct its
business operations at its Headquarters and regional/field offices. A MoU, with a period
of performance from FYs 2004 through 2013, sets forth the agreement for payment into
the FBF for space and services provided by GSA to SSA. For more information on the
MoU, refer to Appendix C, Memorandum of Understanding.

Our period of performance for this review is FYs 2007 through 2011. GSA’s rental costs
charged to SSA for FYs 2007 through 2011 are as follows.

                 Table 1 – Total Cost Paid by SSA for FYs 2007 Through 2011
                                                             Operation &
           SSA Annual          Capital                       Maintenance
                Rent       Improvement      Total Rental      Costs for
           Expense for      Fee for All     Costs for All     Delegated
           All Buildings     Buildings     Buildings Paid Buildings Paid    Total Costs
   FY      Paid to GSA Paid to GSA             to GSA          by SSA       Paid by SSA
              (Note 1)        (Note 2)                         (Note 3)
 2007      $558,085,595       $1,312,013      $559,397,608    $59,506,115 $618,903,723
 2008       602,274,057         1,132,304     $603,406,361      59,604,158 $663,010,519
 2009       619,258,599         1,080,863     $620,339,462      64,537,151 $684,876,613
 2010       655,271,321           734,260     $656,005,581      58,992,354 $714,997,935
 2011       678,962,133           505,928     $679,468,061      87,920,804 $767,388,865
 1. Rent Expense includes, but is not limited to, repair and alteration, rental, real estate tax, protection,
 operation and maintenance (O&M), general and administrative (G&A), depreciation, Public Building fee
 and other costs.

 2. Capital Improvement Fee – For capitalized projects funded through the FBF, SSA will pay GSA a
 capital improvement fee based on SSA’s Trust Fund share of the building’s total depreciation times the
 Department of the Treasury’s Federal Financing Bank rate as of the last day of the FY.

 3. O&M Costs for Delegated Buildings include SSA’s O&M costs separate from the O&M costs in GSA
 rent expense.




MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                   2
In addition to the total rental costs for all buildings paid to GSA by SSA, SSA paid O&M
costs for delegated buildings. Delegated buildings are those that GSA has given SSA
the authority to operate and maintain, which currently consist of 18 buildings. SSA pays
O&M costs separate from GSA’s monthly rent bill.

MoU Between GSA and SSA

GSA and SSA signed the current MoU for space and services in April 2003. The MoU
will expire on September 30, 2013. The MoU indicates GSA and SSA will sign an
Occupancy Agreement (Agreement) for each building and/or space occupied by SSA.
Each Agreement defines GSA’s relationship with each customer agency and

•     establishes specific financial terms, provisions, rights, and obligations of GSA and its
      customer for each space assignment;
•     minimizes exposure to future unknown costs for both GSA and customer agencies;
•     stabilizes rent payments to the extent reasonable and desired by customers; and
•     allows tailoring of space and related services to meet customer agency needs.

Each SSA site has an Agreement; however, there can be more than one Agreement per
building. The Agreement provides information on the determined cost of rent and
indicates a commercial equivalent. In addition, the Agreement does indicate that the
monthly bill will reflect the rent reduction appropriate for SSA’s Trust Fund programs.
GSA‘s Rent on the Web (RoW) allows SSA to view its monthly bills online.
Additionally, the MoU establishes a year-end reconciliation process. For more
information on the year-end reconciliation process, refer to Appendix D.

On February 17, 2009, Congress passed the American Recovery and Reinvestment Act
of 2009 (ARRA). 2 ARRA provided SSA $500 million for a new data center to replace
the National Computer Center and cover a portion of associated information technology
costs. 3 Upon its completion, GSA, not SSA, will take ownership of the new data center.
GSA expects that SSA will pay rent for the new data center even though the funds to
construct the new data center were directly appropriated to SSA (see Appendix E).

In addition, SSA pays rent for buildings that were built with funds from SSA’s Old-Age
and Survivors and Disability Insurance Trust Funds. The Centers for Medicare and
Medicaid Services’ (CMS) Hospital Insurance/Supplemental Medical Insurance (HI/SMI)
Trust Funds were part of SSA until SSA became a separate agency in FY 1995. Since
a portion of HI/SMI funds was used to purchase some of the buildings SSA acquired,
HI/SMI retained that portion of assets.




2
    Pub. L. No. 111-5, 123 STAT. 115.
3
    Pub. L. No. 111-5, 123 STAT. 115, 185.


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                3
In FY 2011 SSA paid $22.8 million in rent to GSA for Trust Fund Buildings (TFB). SSA
incurred an additional $61.5 million for delegated operations and maintenance costs
which SSA paid to others directly for TFB. The Department of Justice recently issued
an opinion that proceeds from the sale of property purchased with Trust Fund assets go
to GSA, not back to the Trust Fund. GSA records indicate GSA received $7.2 million
from the proceeds of the sale of property originally purchased with Trust Fund money.

In FY 2011 SSA paid $43.1 million in rent to GSA for delegated buildings. SSA incurred
an additional $87.9 million for delegated operations and maintenance costs that it paid
directly to others for delegated buildings. Since some of SSA’s Delegated Buildings are
TFB, the $43.1 and $87.9 million includes the majority (approximately 80 percent) of the
$22.8 and all of the $61.5 million referenced in the preceding paragraph, respectively.

In an August 2, 2012 letter, the House Committee on Ways and Means requested our
assistance in determining what critical elements are not clear or are missing from the
April 2003 MoU between GSA and SSA.




MoU Between GSA and SSA for Space and Service (A-15-13-23043)                            4
                                                    Results of Review
Congressional Questions

Based on our understanding of the GSA building rental process described in the MoU
and inquiries we made with GSA and SSA, we aggregated the information to respond to
the August 2, 2012 congressional inquiry letter. We have also included comments we
received from GSA and SSA with each question. Based on our review of the MOU and
the information we received from GSA and SSA we determined that critical elements
are not clear or are missing from the April 2003 MoU between the GSA and SSA as
described in the responses to the following questions.

QUESTION 1: Who has responsibility for paying utilities, maintenance, etc.

While the MoU does not directly address this question, there is some information
regarding utilities, maintenance, etc. Refer to Appendix C for the MoU. GSA and SSA
should consider this when preparing the new MoU. In addition, the type of building
affects the rent; therefore, the new MoU should include a detailed description of what is
included in the rent (that is, utilities, maintenance, etc.) by building type. Refer to
Appendix F, for a description of the building types.

In addition, GSA stated,
      For property in the custody and control of GSA, it is GSA’s responsibility to
      pay for utilities and building operations and maintenance. In buildings where
      GSA has delegated the authority to operate and maintain (O+M delegation) to
      the customer agency (SSA for example), the SSA has the responsibility for
      paying utilities as well as operations and maintenance costs. Agencies’ rent is
      reduced in delegated buildings to reflect the services provided by the agency.

We reviewed the support for the FY 2007 through 2011 “total building expenses”
identified in the year-end reconciliations (see Table 2). In FY 2007, GSA’s reconciliation
was done manually. After FY 2007, GSA modified the year-end reconciliation process
to reflect the actual operating costs. For FYs 2008 through 2011, we were able to
determine the actual building expenses charged (for example, repair and alteration cost,
rental, real estate tax, protection, O&M, depreciation, and G&A cost). However, in
FY 2007, we were unable to determine the actual building expenses charged because
GSA could not provide cost records at the detail level needed due to the changes in the
reconciliation process. Refer to Table 2 for the total SSA building expenses by GSA
building type for FYs 2008 through 2011.




MoU Between GSA and SSA for Space and Service (A-15-13-23043)                           5
     Table 2 – Total SSA Building Expenses by GSA Building Type for FYs 2008 Through 2011
                                            2008 Total      2009 Total       2010 Total      2011 Total
           Type of Property                 Expenses        Expenses         Expenses        Expenses
1 – Federal Owned                           $74,804,564     $94,431,201      $77,798,338     $74,529,603
2 – Leased                                  474,525,766     513,058,738      536,876,536      564,000,429
4 – Permit for Federally Owned                         0                0               0                  0
5 – Purchase Contract                          3,342,287       2,678,553       2,673,361        2,613,751
6 – Leased – U.S. Postal Services                      0                0               0         231,308
8 – Portfolio Lease                            4,659,224       2,670,466       5,928,047        3,882,025
Subtotal                                   $557,331,841    $612,838,958     $623,276,282    $645,257,116
Rounding Difference                                  247             119              (8)            (101)
Total Before adjustments                   $557,332,088    $612,839,077     $623,276,274      645,257,015
Adjustments *                                  9,774,836    (28,328,287)                0                  0
Total Rental Costs                         $567,106,924    $584,510,790     $623,276,274      645,257,015
O&M Costs for Delegated Buildings           $59,604,158     $64,537,151      $58,992,354      $87,920,804
Paid by SSA
Total Expenses                             $626,711,082    $649,047,941     $682,268,628    $733,177,819
* According to GSA staff (applicable to FYs 2008 and 2009), GSA calculated the actual cost by taking the
lesser of the total expense pulled from GSA cost accounting systems and the GSA RoW agency bill.

In addition, refer to Appendix J for the details of the building expenses.

According to SSA,
    SSA has the ultimate responsibility of paying for utilities and maintenance costs.
    However, the manner in which these items are paid differs.

        •    For Delegated Buildings, GSA has given SSA the authority to operate and
             maintain 18 buildings. SSA is billed, and pays for, utilities separate from
             GSA’s monthly Rent bill. SSA provides the standard maintenance for these
             buildings - the costs for this are charged to a component of our Limitation on
             Administrative Expenses budget.

             o   However, GSA is responsible for the total replacement of the Core/Shell
                 building systems (e.g., replacement of roof, replacement of chiller). If it is
                 a GSA responsibility, they should fund the replacement. GSA would
                 award a contract to perform these replacements. Many times GSA
                 cannot or will not fund items they are responsible for, so we make the
                 decision to fund the replacements to ensure our employees have a safe,
                 healthy, and secure work environment.

        •    For Federal buildings, utilities and maintenance costs are spelled out in the
             Occupancy Agreement (OA) and are billed to SSA by GSA in the “Operating
             Cost” line item on the monthly Rent bill.




MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                          6
       •   For lease buildings, utilities and maintenance costs are spelled out in the OA
           (and underlying GSA lease) and are billed to SSA by GSA in the “Operating
           Cost” line item on the monthly Rent bill.


QUESTION 2: Whether SSA pays rent and if so, what costs the rent covers for the
buildings SSA purchased and has delegated authority to manage.

The MoU does identify the rent charged to SSA. However, the new MoU should include
a detailed description of the rent by building type. Although SSA checks the
reconciliation of SSA rental properties, certain amounts are cursory and difficult to
obtain detailed costs. For example, SSA requested supporting documentation for the
actual costs for the Altmeyer Building; however, GSA could not provide the supporting
documentation. For this review, we also requested detailed supporting documents for
specific costs, and to date, it has not been provided. Therefore, the new MoU should
include a statement that allows the Agency to conduct a detailed review of any actual
building rental costs (at its discretion). GSA and SSA should take this under
consideration when preparing the new MoU.

GSA stated, “In accordance with the MOU between GSA and SSA (effective
FY 04 through FY13), the rent charged to SSA covers the direct costs for cleaning,
building operations, maintenance and minor repairs, protection, depreciation and rental
expenses and the indirect costs (general and administrative overhead) incurred by GSA
in providing the standard level of service.”

In addition, GSA stated, “In a delegated SSA building, it is the responsibility of SSA to
pay for cleaning, building operations, maintenance, minor repairs, and protection.”

According to SSA,
       We pay different rates of rent for the real property we occupy.
           1. Trust Fund buildings – Only actual operating costs are charged to the
              Trust Funds. SSA’s General Fund related work is charged market
              rates.
           2. Other Federal buildings – Only actual operating costs are charged to
              the Trust Funds. SSA’s General Fund related work is charged market
              rates.
           3. Leased buildings – Full lease costs plus administrative costs.
               i. Except Portfolio Lease buildings, which are priced as if federally
                  owned.

       The rent is determined by various factors outlined in each building’s OA (see
       Article IV of the Rent MoU and the GSA Pricing Guide.) For the Delegated
       Buildings, it is our understanding that the “rent” is supposed to represent
       general and administrative expenses incurred by GSA.

       GSA posts monthly rent bills through the ROW online interface provides
       charges by category for each building being billed. The amount listed on the
       ROW as the “Total Monthly Rent” represents the commercial equivalent (or


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                               7
      market) rent agreed to in each building’s Occupancy Agreement (OA) and is
      based on a GSA appraisal of the local market. For Federal and Trust Fund
      buildings, we receive the Congressional Reduction credits on the ROW to
      attempt to bring the shell rental rate on trust fund related work in line with
      GSA’s actual costs associated with running the building. This is an attempt to
      achieve a zero liability between GSA and SSA at the end of each fiscal year.

      As these credits are merely estimates, SSA’s Office of Finance (OF) conducts
      a rent settlement with GSA after the conclusion of the fiscal year. SSA
      reconciles the year-end, cumulative ROW bill to the actual costs provided by
      GSA in their Trust Fund Adjustment Reconciliation Report. We pay actual
      costs for the trust fund related work of the agency, while GSA charges the
      non-trust fund work market rates. On some buildings the actual costs are
      greater than the ROW bills and on others the actual costs are less. We take
      the total of the differences to determine whether we must pay GSA additional
      monies or whether GSA must pay us.”

QUESTION 3: Whether SSA always pays rent for buildings purchased with Trust
Fund assets.

SSA pays rent for TFBs. The MoU states that GSA bills “SSA a less than commercial
equivalent rent for space and services provided to SSA's trust fund program.” Table 3
indicates SSA’s TFB expenses paid to GSA from FYs 2008 through 2011 (SSA’s FY
2007 detailed information was not available).

       Table 3 – SSA TFB Expenses Paid to GSA from FYs 2008 Through FY 2011
               FY                                  Total TFB Expenses
              2008                                      $30,214,154
              2009                                      $32,932,309
              2010                                      $26,258,116
              2011                                      $22,781,400

Refer to Appendix G for additional details of the TFB costs.

GSA stated, “The MoU between GSA and SSA (effective FY 04 through FY 13) ‘sets
forth [a] special pricing policy which allows GSA to bill SSA a less than commercial
equivalent rent for space and services provided to SSA’s trust fund programs.’ The rent
covers the areas listed in the answer to Question 1.”

Further, SSA stated, “SSA does pay rent for buildings purchased from Trust Fund (TF)
assets; however, we also receive the Congressional Reduction (CR) for these buildings,
which approximates the rent down to GSA’s actual operating cost.”




MoU Between GSA and SSA for Space and Service (A-15-13-23043)                           8
QUESTION 4: Whether the MoU differentiates between rent for TFB, rent for other
federally owned buildings, and buildings rented on the open market.

GSA and SSA agreed that the MoU does not differentiate between rent for TFB and rent
for other buildings. GSA and SSA should consider this when preparing the new MoU.

QUESTION 5: Whether the definition of rent, assets, depreciation, and sale of
properties are clearly articulated.

The MoU does define some terms, such as rent and depreciation; however, the list of
definitions should include all applicable terms (that is, asset, rent, shell rent, return on
investment, types of buildings, and sale of properties). The MoU should also specify
who should record assets, how they should be disposed of, and who is entitled to the
proceeds. GSA and SSA should consider this when preparing the new MoU. For more
information on the MoU, see Appendix C.

GSA stated, “The MOU contains definitions for rent and depreciation within ‘Article IV-
Definitions.’ ”

According to SSA, “The MOU does provide a definition of rent and depreciation, but
does not specify who should record the assets, how they should be disposed of, or who
is entitled to the proceeds.”

QUESTION 6: Whether the accounting process that GSA and SSA follow for
property purchased with Trust Funds is clearly set forth.

The MoU does not clearly set forth the accounting process for property purchased with
Trust Fund dollars. The new MoU should describe the accounting process for TFB for
both GSA and SSA. GSA and SSA should take this under consideration when
preparing the new MoU. For more information on the MoU, please refer to Appendix C.

GSA stated,
    Generally, GSA follows the policy language contained in the MOU. However, the
    MOU does not clearly set forth all accounting processes. For example, in the
    MOU under “Article IV Definitions” part B. “Administrative Cost Distribution - SSA’s
    Cost Analysis System” sets forth policy to handle the administration of programs
    handled by General Funds and Trust Funds. The language does not put in place
    an accounting process that clearly translates to the calculations contained in the
    reconciliation.

According to SSA, “The process that GSA and SSA follow for property purchased with
TFs is not clearly defined anywhere. SSA had carried the buildings on their books until
the Department of Justice judgment in Fiscal Year (FY) 2011. As a result of the
decision, SSA removed the buildings and the related depreciation from the GL.”




MoU Between GSA and SSA for Space and Service (A-15-13-23043)                              9
QUESTION 7: Whether GSA will return funds obtained from the disposal of
properties purchased with Trust Fund assets to the Trust Funds.

The MoU does not state that GSA will return funds obtained from the disposal of
properties purchased from Trust Fund assets to the Trust Fund. Although SSA
provided funds for a number of buildings it occupies, the buildings are considered
managed and controlled by GSA. When a TFB is sold, the current legal ruling 4 requires
that GSA to receive the proceeds of the sale. 5

The rules for disposal of Federal property allow State and local governments to be given
unwanted SSA property at no cost. If State and local agencies decline, the property can
then be offered to non-profit organizations at no cost. If they decline, the property is
then sold. The proceeds of that sale are given to GSA. (See Appendix I for details on
past SSA TFB property transactions.)

Our review of the list of SSA-disposed property found reporting differences between
GSA and SSA. According to SSA records, GSA sold the TFB for $5.2 million while GSA
reported it sold the buildings for $7.2 million. In one case, GSA stated it “. . . ended up
disposing of the property via two separate auctions and the SSA figure represents
proceeds from the second sale only, while our figure accounts for both.” Additionally,
GSA indicated it plans to sell two additional SSA TFBs for $245,000 and $700,000,
respectively.

SSA also stated, “Based on our understanding and recollection, GSA did account for
the TFBs as assets on their financial statements. This is one of the concerns about us
carrying them as well. Essentially, the Government was double counting the same
assets.” Further, SSA stated, “. . . GSA knew the value at the time of their sale or
conveyance: they accounted for and depreciated the TFBs just like we did, therefore
they knew the book value, as they calculated it, at the time of disposal.” Therefore, we
have a concern regarding double counting the depreciation on the same assets.

In our review of the TFB inventory, we found information that indicated a field office was
relocated in March 2007. SSA’s records indicate the property was originally built using
SSA’s Trust Fund dollars. The building remained vacant for several years. Immigration
& Customs Enforcement (ICE) renovated the building and was to move into the space in
2011. As of September 29, 2010, per GSA, based on legislative authority, this building
is under GSA’s custody and control, and it was leasing the building to ICE.

The new MoU should identify who will retain the proceeds from the sale of TFB. GSA
and SSA should consider this when preparing the new MoU.

4
 Department of Justice, Office of Legal Counsel, Memorandum, “Re: Disposition of Proceeds from the
Sale of Real Property Acquired with Money from the Social Security Trust Funds,” December 17, 2010.
5
  We noted one exception where GSA did not receive the proceeds of the sale. Per SSA, GSA sent SSA
the proceeds of $44,135 from the sale of the Brownsville, Texas building via Treasury’s
Intergovernmental Payment and Collection system.


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                         10
GSA stated, “GSA retains the net proceeds in the Federal Buildings Fund as authorized
under section 412 of the Consolidated Appropriations Act of 2005.”

According to SSA, “There is no language in the MOU that indicates GSA will return
funds obtained from disposal of property purchased from TFs. Typically, GSA has not
returned funds resulting from the disposal of property purchased from the TFs to SSA.”

QUESTION 8: Whether SSA only pays for services that GSA provides, such as
maintenance and security.

GSA continues billing SSA for certain indirect costs (that is, G&A expenses) for
delegated buildings and for TFBs even though SSA provides these services. The new
MoU should exclude these indirect costs for delegated buildings and TFBs. GSA and
SSA should take this under consideration when preparing the new MoU.

GSA stated, “SSA pays for services received: building operations, maintenance and
capital improvements. Security in GSA controlled owned and leased space is provided
by the Department of Homeland Security (DHS), Federal Protective Service (FPS).”
Also, GSA stated, “. . . The DHS/FPS began performing their own billing functions in
July 2011. However, there can be GSA security items which are separate capital
investments in a property. These are separately priced, identified in the Occupancy
Agreement and when funded by PBS/GSA, are charged to tenant agencies on the PBS
Rent Bill as a ‘Building Specific Amortized Capital Charge.’ This explains why there
would be security charges on the GSA Rent Bill.”

Also, GSA stated, “SSA does not pay O&M, Cleaning, or Protection to GSA . . . in the
delegated buildings. That cost is solely SSA’s responsibility.”

SSA’s response is included in its response to Questions 1 and 2.

In addition, according to SSA, “For security, GSA no longer bills us for monthly security
charges. Starting in FY year 2005, Department of Homeland Security began charging
the monthly basic and building-specific security fees. There are, however, minimal
charges included in the monthly GSA rent bills for the protection services they provide.”

Please see Sections 2.9 and 3.10 of the GSA Pricing Desk Guide 6 for additional
information on security charges.




6
 GSA’s Pricing Desk Guide” is available online at the following Website:
http://www.gsa.gov/graphics/pbs/PDG_4th_Ed.pdf.


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                          11
QUESTION 9: Whether there is a clear statement on how services and actual
costs are calculated.

There is some information in the MoU; however, it does not encompass all actual costs
or delineate all the services provided. GSA and SSA should consider this when
preparing the new MoU.

GSA stated, “See ‘Article V - Payments for Rent and Standard Levels of Service’ [of the
MoU] for definitions and guidance on calculations.”

SSA referenced “. . . the MoU, Article IV, A and I.”

For more information on the MoU, Article IV – Definitions and Article V – Payment for
Rent and Standard Levels of Service, refer to Appendix C.

QUESTION 10: How long the above practices have been in place.

The current MoU became effective in FY 2004; however, the practices were in place
before the MoU became effective.

GSA stated, “The current Memorandum of Understanding between the SSA and GSA
became effective on October 1, 2004 (FY 2004) and is in-effect for 10 years, through
FY2013. This MOU is reflective of earlier arrangements between SSA and GSA and
how SSA’s rent payments would be developed and managed.”

According to SSA, “Most of the practices have been in place for several decades. The
current MOU went into effect in 2004.”

QUESTION 11: Whether the rent paid by the SSA contributes to the Federal
Buildings Trust Fund and if so, whether the contributions are earmarked for SSA
or can be used by any Federal agency.

The MoU is not clear on whether SSA’s paid rent will contribute to the FBF. Therefore,
the new MoU should clearly indicate whether SSA’s rent will contribute to the FBF.
GSA and SSA should consider this when preparing the new MoU.

GSA stated, “The rent paid by SSA contributes to the Federal Buildings Fund. These
funds are not designated for any one particular building, but are collected and managed
to provide for capital improvement needs of the entire portfolio of GSA’s owned assets.”

According to SSA,
    SSA pays GSA only the actual costs for trust fund related work for the Federal and
    TF buildings based on adjustments to the monthly bill and year-end reconciliation.
    In the annual rent reconciliation, we pay the capital improvement fee, which is our
    direct contribution to the Federal Building [sic] Fund (FBF) based on the 2003




MoU Between GSA and SSA for Space and Service (A-15-13-23043)                             12
    MOU. We are not aware of whether GSA earmarks contributions to the FBF for a
    particular agency.

    The fees we pay associated with leased buildings are supposed to be a
    reimbursement of GSA administrative fees for lease contracting services, lease
    administration, legal issues, etc. It is our understanding these admin fees are
    used as cost offsets for GSA proper and are not part of the FBF.

QUESTION 12: OIG’s Opinion regarding what actions are needed to ensure
workers' hard-earned payroll tax dollars are being used as intended in the Social
Security Act.

In our opinion, legislation is needed to:

•   provide for the return to the SSA Trust Fund of proceeds obtained from the disposal
    of property purchased from SSA Trust assets, to ensure SSA uses workers’ payroll
    tax dollars as intended in the Social Security Act;
•   reduce or eliminate fees paid to GSA for Trust Fund and/or Delegated buildings; and
•   ensure SSA does not pay expenses (for example, rent or GSA administrative costs)
    to GSA for SSA’s new data center, for which SSA was directly appropriated funding.

In addition, GSA and SSA should include the accounting treatment of Trust Fund
properties in the new MoU. This would include the accounting process and each
Agency’s responsibility for TFBs (that is, who should record and depreciate the assets,
how to account for disposed property, and who is entitled to the proceeds of the sale of
TFBs).

Additionally, GSA and SSA should consider adding a provision to the new MoU that
allows SSA or OIG to audit the GSA actual costs associated with SSA occupied
properties to assure they are accurate and necessary. Examples include, but are not
limited to, maintenance, grounds-keeping; security, and depreciation.




MoU Between GSA and SSA for Space and Service (A-15-13-23043)                          13
                                                                 Other Matters
Other Federal Agencies’ MoUs
To increase our understanding of the SSA MoU 7 we obtained copies of MoUs from GSA
for two other Federal agencies’ that have trust funds. We reviewed the Railroad
Retirement Board (RRB) 8 and CMS 9 MoUs to determine whether SSA’s new MoU could
benefit from the information in them.

Our review found all three MoUs were similar. All were effective for FY 2004 and
remain in effect for 10 years, through FY 2013. We found the following minor
differences.

•     We found that all three MoUs state that the parties may change the agreement by
      mutual consent; however, the MoUs with the RRB and with CMS state that the
      change should be in a written addendum to the MoU. This phrase was not in the
      MoU with SSA.
•     SSA and the RRB’s MoUs have a clause on "Delegation of Authority" while CMS’
      MoU does not have this clause.
•     SSA’s MoU has a clause regarding SSA's "Cost Analysis System." RRB and CMS’
      MoUs do not have this clause. It should be noted that while space costs related to
      general fund programs are subject to full rent payments, space costs related to Trust
      Fund programs are subject to reduced rent payments.
•     CMS’ MoU does not have a clause for Building Termination Costs.

As a result of the review of RRB and CMS’ MoUs, we believe SSA’s MoU should
include language that any changes should be in a written addendum to the MoU.




7
 GSA and SSA signed the SSA MoU on April 11 and April 28, 2003, respectively. The SSA MoU will
expire on September 30, 2013.
8
    GSA and RRB signed the RRB MoU on September 17 and October 10, 2003, respectively.
9
    GSA and CMS signed the CMS MoU on November 30 and October 2, 2004, respectively.


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                    14
SSA Policy on MoUs

We reviewed SSA’s Administrative Instructions Manual System (AIMS) 10 to determine
whether SSA’s new MoU could benefit from the guidance it contains.

The MoU between GSA and SSA follows about half of the requirements in SSA's AIMS
05.01.06A. It is a formal written agreement signed by both parties. The current MoU
contains the following.

      •   Names of both agencies
      •   Purpose of agreement
      •   Background of agreement
      •   Duration of agreement, including FY covered
      •   Services SSA will receive
      •   Responsibilities of each agency (to some extent)
      •   Financing/billing arrangements
      •   Authority
      •   Date and signature of officials at each agency

However, it does not contain the following information, which is required per the manual.

      •   Addresses of both agencies
      •   Names, addresses, and telephone numbers of both points of contacts
      •   Scope of work
      •   Sufficient information on responsibilities of each agency
      •   Estimated cost
      •   A Disclaimer Clause

We believe the new SSA MOU should include all information required in SSA’s policy
manual.




10
     AIMS, Financial Management Manual (FMM): 05.01.06A, January 24, 2011.


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                         15
                                                                Conclusions
Based on our understanding of the rental process and inquiries with GSA and SSA, we
developed responses to the congressional concerns. We also reviewed MoUs used by
other Federal agencies that have trust funds and SSA’s policy manual on MoUs.
Additionally, we obtained supporting documentation to increase our understanding of
the rental and billing process between GSA and SSA.

We believe legislation is needed to

•   provide for the return to the SSA Trust Fund of proceeds obtained from the disposal
    of property purchased with SSA Trust Fund assets, to the Trust Fund to ensure SSA
    uses workers’ payroll tax dollars as intended in the Social Security Act;
•   reduce or eliminate indirect costs and fees paid to GSA for Trust Fund and/or
    delegated buildings; and
•   ensure SSA does not pay expenses (for example, rent or GSA administrative costs)
    to GSA for the new data center, for which SSA was directly appropriated funding.

Also, we believe terms and conditions in the current MoU should remain in use and, at a
minimum, GSA and SSA’s new MoU should incorporate the following provisions.

1. The accounting treatment of Trust Fund properties. This would include the
   accounting process and each Agency’s responsibility for Trust Fund property (that is,
   who should record and depreciate the assets, how disposed property should be
   accounted for, and who is entitled to the proceeds of the sale of Trust Fund
   property).

2. A statement that allows SSA or SSA OIG to perform a detailed review of any actual
   building costs (at their discretion). Examples include, but are not limited to,
   maintenance, grounds-keeping; security, and depreciation.

3. A detailed description and example of the year-end reconciliation process to include
   the

    •   occupancy agreement,
    •   types of GSA rental properties (that is, Federal-owned, leased, purchase
        contract, portfolio lease, etc.),
    •   RoW costs (that is, market rent, agency rent, joint use, billing adjustments), and
    •   actual GSA costs/services provided (that is, repair and alteration, rental, real
        estate tax, protection, operation and maintenance, G&A, depreciation, Public
        Building fee, capital improvement fee and other costs).




MoU Between GSA and SSA for Space and Service (A-15-13-23043)                              16
4. Appropriate information, terms and conditions, including those required by SSA
   policy, such as, but not limited to:

   •   Names and addresses of both agencies;
   •   Names, addresses, and telephone numbers of both Project Coordinators;
   •   Purpose of agreement;
   •   Background of agreement;
   •   Scope of Work;
   •   Duration of agreement, including FY covered;
   •   Services SSA will receive;
   •   Definitions (applicable definitions such as but not limited to assets, rent (a
       detailed description of what is included in the rent by building type), shell rent,
       return on investment, delegated buildings and trust fund buildings);
   •   Responsibilities of each agency (including but not limited to responsibility for
       paying utilities and maintenance);
   •   Estimated cost and financing/billing arrangements;
   •   Authority (list the applicable legislation);
   •   Date and signature of officials at each agency authorized to purchase and
       provide service;
   •   A statement that any agreed-upon changes to the MoU should be in a written
       addendum to the MoU;
   •   A Disclaimer Clause (for example, SSA will not accept responsibility for
       reimbursement of late fees or other costs incurred due to the negligence of
       GSA).
   •   A statement whether SSA’s rent will contribute to the FBF.




MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                17
                                         Appendices




MoU Between GSA and SSA for Space and Service (A-15-13-23043)
                                                                  Appendix A

Acronyms
    Agreement         Occupancy Agreement
    AIMS              Administrative Instructions Manual System
    ARRA              American Recovery and Reinvestment Act of 2009
    CMS               Centers for Medicare and Medicaid Services
    CR                Congressional Reduction
    DHS               Department of Homeland Security
    FBF               Federal Buildings Fund
    FMM               Financial Management Manual
    FPS               Federal Protective Service
    FY                Fiscal Year
    GSA               General Services Administration
    G&A               General and Administrative
    HI/SMI            Hospital Insurance/Supplemental Medical Insurance
    ICE               Immigration & Customs Enforcement
    MoU               Memorandum of Understanding
    OA                Occupancy Agreement
    OIG               Office of the Inspector General
    ORM               Office of Realty Management
    O&M               Operation and Maintenance
    O+M               Operation and Maintenance
    PBS               Public Buildings Service
    Pub L. No.        Public Law Number
    ROI               Return on Investment
    RoW               Rent on the Web
    RRB               Retirement Railroad Board
    SSA               Social Security Administration
    TF                Trust Fund
    TFB               Trust Fund Buildings
    U.S.C.            United States Code
    USPS              United States Postal Service




MoU Between GSA and SSA for Space and Service (A-15-13-23043)
                                                                     Appendix B

Scope and Methodology
We collected and reviewed information specific to questions concerning the current
Memorandum of Understanding (MoU) between the General Services Administration
(GSA) and Social Security Administration (SSA) for space and services to determine
what critical elements are not clear or are missing. The current MoU is effective for
10 years; it started in Fiscal Year (FY) 2004 and expires at the end of FY 2013.

While formulating our opinion, we also considered what actions are needed to ensure
workers’ payroll tax dollars are being used as intended in the Social Security Act.

To achieve our objective, we:

   •   Reviewed the MoU between GSA and SSA for space and services.

   •   Reviewed Code of Federal Regulations, Title 41 Part 102-85, Pricing Policy for
       Occupancy in GSA Space. We also reviewed GSA’s Pricing Desk Guide.

   •   Reviewed SSA’s Administrative Instructions Manual System (AIMS), Material
       Resources Manual, Chapter 1, Instruction 1, Realty and Space Management;
       AIMS Financial Management Manual, Chapter 5, Interagency Agreements--Work
       Performed by Federal Agencies for SSA; and the SSA Accounting Manual,
       Property Accounting, Chapter 1-90.

   •   Reviewed the December 17, 2010 Department of Justice Ruling, Disposition of
       Proceeds from the Sale of Real Property Acquired with Money from the Social
       Security Trust Funds. We also reviewed the SSA White Paper, Trust Fund Real
       Property Reporting of Assets.

   •   Interviewed the SSA Office of Finance and Office of Realty Management staff to
       understand the process and the current conditions with GSA.

   •   Reviewed SSA financial reports that included information on SSA properties,
       including those purchased with Trust Funds. We also obtained information on
       those buildings that were retired from SSA service and their disposition and any
       proceeds obtained from their sale.

   •   Visited with the GSA Public Buildings Service staff to discuss SSA property
       occupancy agreements, to review fees charged SSA, and to discuss what the fee
       funds were used toward.

   •   Reviewed information on the new SSA Data Center and the status with GSA.



MoU Between GSA and SSA for Space and Service (A-15-13-23043)                           B-1
We performed our review in Baltimore, Maryland, in September through
November 2012. The primary entities reviewed were the Offices of the Deputy
Commissioner for Budget, Finance and Management; Financial Policy and Operations,
Office of Finance; and Facilities and Supply Management, Office of Realty
Management. We conducted our review in accordance with the Council of the
Inspectors General on Integrity and Efficiency’s Quality Standards for Inspection and
Evaluation. We did not substantiate the data and/or information that SSA and GSA
provided to us. However, we concluded that data we obtained for this review was
sufficiently reliable to support the findings and conclusions.




MoU Between GSA and SSA for Space and Service (A-15-13-23043)                      B-2
                                                                Appendix C

Memorandum of Understanding




MoU Between GSA and SSA for Space and Service (A-15-13-23043)           C-1
MoU Between GSA and SSA for Space and Service (A-15-13-23043)   C-2
MoU Between GSA and SSA for Space and Service (A-15-13-23043)   C-3
MoU Between GSA and SSA for Space and Service (A-15-13-23043)   C-4
MoU Between GSA and SSA for Space and Service (A-15-13-23043)   C-5
MoU Between GSA and SSA for Space and Service (A-15-13-23043)   C-6
                                                                     Appendix D

General Services Administration Rental Bills
and Year-End Reconciliation Process
The Memorandum of Understanding (MoU) establishes a year-end reconciliation
process. The General Services Administration (GSA) and Social Security
Administration (SSA) year-end reconciliation process consists of two parts, which are as
follows.

   •   GSA Rent Billing Charges to SSA (Refer to Table D1 for an example of the
       FY 2011 GSA Rent Billing Charges to SSA).
   •   GSA Actual Costs Computation (Refer to Table D2 for an example of the
       FY 2011 GSA Actual Cost Computation).

To calculate the final amount due either GSA or SSA, GSA and SSA calculate the
difference between the GSA rent billing charged to GSA and SSA’s actual cost
computation (Refer to Table D3 for an example of the FY 2011 Year End
Reconciliation). In the FY 2011 reconciliation calculation, GSA refunded SSA
$4.2 million.

GSA Rent Billing Charged to SSA

During a FY, GSA bills SSA for the cost of the rent and related building services each
month using Treasury’s Intergovernmental Payment and Collection system via GSA‘s
Rent on the Web (RoW). Refer to Table D1 for an example of the FY 2011 GSA Rent
Billing Charges to SSA.




MoU Between GSA and SSA for Space and Service (A-15-13-23043)                       D-1
                    Table D1 – FY 2011 GSA Rent Billing Charges to SSA
                  Description                   Costs              Total                       Notes
Rent Billing Charges to SSA
Gross billing
   Market rent                               $661,726,886                                         1
   Agency rent                                $48,779,262                                         2
   Joint use                                    $5,387,336                                        3
Total gross billing                                             $715,893,483*

Less: billing adjustments
   Current year                                         $20,720,363
   Prior year                                             $5,474,569
   Trust fund adjustment                              $ (58,369,419)
Total adjustments                                                          ($32,174,488)*         4

Net amount billed and paid                                                  $683,718,995

* There are rounding differences of $1. The actual amounts reported between GSA and SSA had cents.

Notes:

For the purposes of this review, we define the following as:

1. Market Rent – consists of amount of payment due for occupancy of the building shell, 1
   amortized general tenant improvements, operating costs (costs of operating a property at a
   standard level of service) and real estate taxes.

2. Agency Rent – consists of amortized customized tenant improvements, GSA installed
   building improvements (e.g., Heating, Ventilation and Air conditioning upgrades), building
   security features (for example, magnetometers, x-ray machines, closed circuit cameras and
   monitors), parking, and Public Buildings Service (PBS) Fee. 2

3. Joint Use – total charges for joint-use buildings amenities space, surface parking, and
   structured parking.

4. Total Adjustments - The gross bill is revised for billing adjustments. The billing adjustments
   include either correction of errors in the current or previous billing cycle and Trust Fund
   adjustments. 3

Refer to Appendix M – GSA’s FY 2011 RoW for the support for these costs.

1
 Building shell means the complete enveloping structure, the base-building systems, and the finished
common areas (building common and floor common) of a building that bound the tenant areas.
2
 PBS fee is the amount charged to an agency to cover GSA costs associated with lease acquisition,
property management services, and indemnification from risks that GSA assumes, most notably the risk
of vacancy. The PBS fee for a leased space is a flat 7 percent and applies to all lease actions.
3
  The MoU indicates that services related to the Trust Funds are to be charged a commercial equivalent
rent that approximates the actual operating costs; therefore, GSA applies a Trust Fund adjustment.


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                          D-2
GSA Actual Cost Computation

After the close of each FY, GSA will provide SSA the final cost reports within 30 days.
GSA and SSA will complete the final reconciliation settlement within 60 days of SSA’s
receipt of the final cost report. Refer to Table D2 for an example of the FY 2011 GSA
Actual Cost Computation.

                     Table D2 – FY 2011 GSA Actual Cost Computation
                Description                     Costs            Total                        Notes
GSA actual cost computation:
Total building expenses                                        $645,257,015                      1
Less: depreciation
   Purchase contract buildings                 $1,217,791
   Trust fund buildings                          $125,431        $1,343,222                      2

Total adjusted cost                                                        $643,913,793

Rent liability computation                                                                       3
General fund - full rent
  Gross billings (see Table D1)                        $715,893,483
  Billing adjustments (see Table D1)                    $26,194,932
  Total                                                $742,088,415
  Percentage applied                                        35.70%
   General fund amount                                                     $264,925,564

Trust fund - actual cost
   Actual cost (see above)                             $643,913,793
   Percentage applied                                       64.30%
    Trust fund amount                                                      $414,036,569

SSA total liability                                                        $678,962,133

Notes:

For the purposes of this review, we define the following as:

1. Total Building Expenses – Actual operating costs [which consist of direct costs (e.g., cleaning,
   building operations, maintenance and minor repairs, protection, depreciation and rental expenses)
   and indirect costs (i.e., general and administrative overhead) incurred by GSA in providing the
   standard level of service] for each building.

2. Depreciation Adjustment – An adjustment eliminating depreciation related to SSA financed capital
   improvements and purchase contract buildings.

3. Rent Liability Computation – describes the Administrative Cost Distribution: SSA administers
   programs financed by both general and Trust Funds. To determine the proper distribution of
   administrative costs to SSA’s programs, SSA’s Cost Analysis System relates workloads processed to
   how work years are used. The percentage of space costs related to general fund programs are
   subject to full Rent payments, while space costs related to Trust Fund programs are subject to
   reduced Rent payments to GSA.


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                         D-3
Although SSA checks the reconciliation of SSA rental properties, certain amounts are
cursory and difficult to obtain detailed costs. For example, SSA requested supporting
documentation for the actual costs for the Altmeyer Building; however, GSA could not
provide the supporting documentation. Therefore, the new MoU should include a
statement that allows the Agency to perform a detailed review of any actual building
rental costs (at its discretion).

To calculate the final amount due either GSA or SSA, GSA and SSA calculate the
difference between the GSA rent billing charged to GSA and SSA’s actual cost
computation. Refer to Table D3 for an example of the FY 2011 Year End
Reconciliation.

                          Table D3 – FY 2011 Year End Reconciliation
                    Description                                      Total       Notes
 Net amount billed and paid (see Table D1)                       $683,718,995
 Less: SSA total liability (see Table D2)                        $678,962,133

 Subtotal                                                        ($4,756,862)

 Plus: capital improvement fee                                      $505,928       1

 September 2011 amount due GSA or (SSA)                          ($4,250,934)

 Notes:

  1. Capital Improvement Fee – For capitalized projects funded through the Federal
     Buildings Fund, SSA will pay GSA a capital improvement fee based on SSA’s trust fund
     share of the building’s total depreciation times the Department of the Treasury’s
     Federal Financing Bank rate as of the last day of the FY.




MoU Between GSA and SSA for Space and Service (A-15-13-23043)                          D-4
                                                                                  Appendix E

General Services Administration Treatment of
the New Data Center (Currently Under
Construction)
In February 2009, Social Security Administration (SSA) received $500 million in
American Recovery and Reinvestment Act (Pub. L. No. 111-5, 123 STAT. 115, 185)
funding to replace its National Computer Center (NCC). The General Services
Administration (GSA) selected a site for SSA’s new data center in June 2011 and
purchased it in August 2011. GSA and SSA also developed a Program of
Requirements. In January 2012, GSA and SSA awarded a contract for the design and
construction of a new data center. This was 2 months ahead of GSA’s revised project
management plan. The planned completion of construction is December 2014. After
completion of construction and commissioning, information technology migration to the
new data center will take an additional 18 months. The new data center is expected to
be operational in 2016.

According to GSA, the Memorandum of Understanding and the Occupancy Agreement
for this location are under development and subject to change until finalized by both
parties. However, GSA stated, “This property will be priced on a Return on Investment 1
methodology, FBF [Federal Buildings Fund] funds will not be applied to it, it will remain
under GSA's custody and control and the operational responsibilities will be delegated
to SSA.”




1
  Return on Investment (ROI) pricing is a Rent rate that ensures GSA a reasonable return on its cost to
acquire and improve the asset. ROI pricing may be used where no other comparable commercial space
is available or no other appraisal method would be appropriate. It may also be used in cases in which an
appraisal-based rental rate will not meet GSA's minimum return requirements for the planned level of
investment.


MoU Between GSA and SSA for Space and Service (A-15-13-23043)
                                                                                Appendix F

Building Types
Social Security Administration Building Types
Social Security Administration (SSA) identifies three types of buildings:

    •   Trust Fund Buildings
    •   Federal Buildings
    •   Leased Space

Trust Fund Building

Trust Fund Buildings (TFB) are purchased with the Social Security Trust Funds during
the program’s early days. SSA constructed 95 TFBs nationwide (including the
Headquarters buildings and some field offices). SSA depreciated these building over a
50-year useful life. As of April 25, 2012, SSA had disposed of 50 TFBs and replaced
them with non-TFBs. For a list of disposed TFBs, refer to Appendix I. Therefore, there
are 45 TFBs remaining in use as Social Security offices. For a list of current TFBs, refer
to Appendix H.

In 2011, SSA removed TFB asset balances from its general ledger as a result of the
Department of Justice (DoJ) legal opinion, 1 which allows the General Services
Administration (GSA) to retain the proceeds from the sale of SSA’s TFBs. Because of
differing depreciation schedules (50 years for SSA versus 30 years for GSA), GSA is
reporting three TFBs as assets on its books.

Federal Building

Federal buildings, operated by GSA, house many of the nation’s Social Security offices.
These buildings often house other Federal, State, or local government offices and
private offices.

Leased Space

Leased space means that the office is owned by a private entity from which the
Government rents the space for a specified time period.




1
 DoJ, Office of Legal Counsel, Memorandum, “Re: Disposition of Proceeds from the Sale of Real
Property Acquired with Money from the Social Security Trust Funds,” December 17, 2010.


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                   F-1
GSA Building Types
GSA classifies SSA’s buildings into 6 building types. GSA identifies the type of building
by the “Occupancy Right” number on GSA’s Rent on the Web (RoW) bill as follows.

                                  Table F1 – GSA Building Types
 Occupancy
Right Number                                       Building Description
      1          Federal Owned - Space whereby title is vested in the Government on behalf of the
                 GSA. Space is under GSA’s custody and control.
       2         Leased - Space for which GSA has a right of use and occupancy by virtue of having
                 acquired a leasehold interest. Space is under the custody and control of GSA.
       4         Permit for Federally Owned - Space where title is vested in Government that is not
                 the GSA. Through a permit with another Federal agency, space is under the custody
                 and control of GSA.
       5         Purchase Contract - Specifically authorized legislation to allow GSA to acquire
                 federally owned space through installment purchase. Space is under the custody and
                 control of GSA.
       6         Leased - U.S. Postal Service Controlled Space – Building is owned by the United
                 States Postal Service (USPS). GSA and USPS have an Agreement similar to a lease
                 that grants GSA custody and control of the space for purpose of housing other federal
                 agencies.
       8         Portfolio Lease (Leased building, billed as Federal) - A long-term or “master”
                 lease, usually negotiated for several tenant agencies each with different term
                 requirements from the underlying GSA lease. In these leases GSA has
                 responsibilities, for example, repair and alteration, which mirrors an ownership
                 position, even though no equity interest exists. Space under these leases is priced as
                 federally owned space.

The following table indicates the type of SSA buildings rented and the numbers of SSA
buildings from FYs 2008 through 2011 (SSA’s FY 2007 detailed building information
was not available).

                 Table F2 –Number of SSA Properties from FY 2008 Through FY 2011
              Type of Property                     2008           2009          2010          2011
                                                Number of      Number of     Number of     Number of
                                                 Buildings      Buildings     Buildings     Buildings
1 – Federal Owned                                       197            195           185           178
2 – Leased                                            1,572          1,565         1,585         1,562
4 – Permit for Federally Owned                             1             1             1             1
5 – Purchase Contract                                      9             8             7             7
6 – Leased - U.S. Postal Service Controlled                0             0             0             5
Space
8 – Portfolio Lease                                        2             1             1              1
Grand Total                                           1,781          1,770         1,779         1,754

Refer to Appendix J for the details of the types of building and the costs. In addition,
refer to Appendix G for the details of the Trust Fund buildings and the costs.


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                        F-2
GSA Delegation Authority

In most cases, GSA is responsible for operating, maintaining, repairing, and protecting
buildings. However, in some cases these functions have been transferred to the
agency who occupies the building such as SSA. The Delegations Agreements 2
program gives SSA the authority to operate, maintain, repair, preserve, make building
alterations and protects the Government-owned or leased buildings and grounds that
are designated by the program. Delegation Agreements are signed by GSA and SSA
for each building in the program. All delegated buildings are solely occupied by SSA.
There are currently 18 delegated buildings. Although SSA is responsible for delegated
buildings, GSA expenses are charged to SSA. The table below indicates SSA’s
Delegated Building expenses paid to GSA from FYs 2008 through 2011 (SSA’s
FY 2007 detailed information was not available).

    Table F3 – GSA-Delegated Building Expenses Charged to SSA from FYs 2008 Through
                      FY 2011 and Delegated Costs Paid Directly by SSA
     FY      Total Delegated    Operations & Maintenance        Total Costs Both Paid to
                Building           Costs for Delegated         GSA and Paid Separately
                Expenses              Buildings Paid                    by SSA
                                          by SSA
    2008       $45,835,874                  $59,604,158                       $105,440,032
    2009       62,437,979                    64,537,151                        126,975,130
    2010       45,504,968                    58,992,354                        104,497,322
    2011       43,122,200                    87,920,804                        131,043,004


For a list of SSA-Delegated Buildings, refer to Appendix K. In addition, refer to
Appendix L for the details of the delegated buildings and the costs. Some of the
delegated buildings are also Trust Fund buildings, which were discussed above.




2
 Laws authorizing such delegations include Section 205 (d) of the Federal Property and Administrative
Services Act of 1949, as amended; the Public Buildings Act of 1959; and the Public Buildings Amendment
of 1972. 41 C.F.R., Part 102-85.


MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                     F-3
                                                                                                      Appendix G

   Social Security Administration Trust Fund
   Buildings Expenses1 – Fiscal Years 2008
   Through 2011
               Table G1 – SSA Trust Fund Building Expenses – FYs 2008 Through FY 2011
  Fiscal   Repair &      Rental        Real     Protection    Other     Operations &       General &      Depreciation     Total
   Year    Alteration     Of          Estate                            Maintenance      Administrative      Cost
              Cost       Space         Tax                                 Cost              Cost

FY 2008     $1,081,777        $0      $63,746       $3,095   $397,411       $2,558,406       $4,759,580    $21,350,139   $30,214,154

FY 2009       742,238             0    74,463          933    404,830        2,275,056        5,423,507     24,011,282    32,932,309

FY 2010        28,428             0    17,707        3,174    438,589        2,272,022        3,638,848     19,859,348    26,258,116

FY 2011       611,195             0    29,469       24,598    745,602        2,249,683        3,812,039     15,308,814    22,781,400




   1
     The analysis of the Trust Fund buildings costs for FYs 2008 through 2011 is based on annual SSA
   Reconciliation rental costs. The number of buildings fluctuates between years, since offices can close or
   move. Unsold buildings will remain in the GSA building inventory, however since the office may have
   closed or moved, there may be no SSA rental costs for these buildings.


   MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                           G-1
           SSA Trust Fund Buildings Expenses – FY 2008
                                                 Table G2 – SSA Trust Fund Building Expenses – FY 2008
            Office Location         Repair &      Rental     Real     Protection    Other      Operations &      General &      Depreciation      Total
                                    Alteration   of Space   Estate                             Maintenance     Administrative      Cost
                                       Cost                  Tax                                  Cost             Cost
 1   ALTMEYER BLDG, MD                $22,311         $0         $0        $804     $25,979          $5,497         $252,538         $11,990     $319,119
 2   ANNEX BLDG, MD                    21,792          0          0           0      19,211           8,737          230,595       1,524,927     1,805,262
 3   ANNISTON, AL                           0          0          0           0       4,191          61,399           67,242          39,980       172,812
 4   AUSTIN, MN                             0          0          0          29       9,714          55,827           21,644          10,736        97,950
 5   BRIDGETON, NJ                     12,946          0          0           0       4,345          93,644           55,454          47,663       214,052
 6   BURLINGTON, IA                         0          0      2,102           0       (200)          67,618           32,366          13,562       115,448
 7   BURLINGTON, VT                         0          0        445           0         598          88,071           43,991          38,169       171,274
 8   CHAMBERSBURG, PA                  30,606          0      3,500           0       8,862          61,468           43,645          16,880       164,961
 9   CHILD CARE CENTER, MD                  0          0          0           0      21,000               0           96,817               0       117,817
10   DALLAS, TX                         1,526          0          0           0       1,408          63,650           30,317          47,976       144,877
11   EAST BLDG - HIGH, MD               6,011          0      1,875           0       5,300           2,410           72,256       1,165,330     1,253,182
12   EAST BLDG - LOW, MD                5,377          0      1,875           0       4,740           2,156           65,534           1,591        81,273
13   FALL RIVER, MA                         0          0        282           0         468          75,469           31,782          12,641       120,642
14   FLINT, MI                              0          0          0           0           0          38,868           13,137           1,167        53,172
15   GADSDEN, AL                            0          0          0           0       4,191          34,275           49,701               0        88,167
16   GLPSC, IL                          1,032          0          0           0      23,026           1,533           21,150       1,226,513     1,273,254
17   GRAND FORKS, ND                        0          0      2,284           0           0          19,511           20,700           4,424        46,919
18   GREENSBURG, PA                    39,800          0          0         571       6,784          78,843           52,651          14,142       192,791
19   HACKENSACK, NJ                     2,500          0          0           0       (200)         167,855           63,648          56,069       289,872
20   HAVERHILL, MA                          0          0          0           0       2,227          84,787           30,354          10,384       127,752
21   HAZELTON, PA                      20,273          0          0           0       (200)          57,145           32,646          59,744       169,608
22   HUNTINGTON PARK, CA                    0          0          0           0       (100)         150,691           57,583          26,274       234,448
23   KANSAS CITY, KS                        0          0      2,538           0       (200)         120,526           58,059          28,189       209,112
24   LEWISTON, ID                           0          0          0           0           0          57,160           31,660           9,431        98,251
25   LITTLETON, NH                          0          0          0           0       2,470          62,703           32,131          22,192       119,496
26   LOS ANGELES, CA (BOYLE                 0          0          0           0           0          49,028           18,236           1,452        68,716
     HEIGHTS)
27   MATPSC, PA                        58,000           0         0           0      51,346                0          504,127        882,680     1,496,153
28   METRO WEST, MD                     8,676           0         0           0      29,957        (122,512)           78,611      5,824,251     5,818,983
29   MINNEAPOLIS, MN                        0           0         0          29       9,944          196,017           69,157         16,595       291,742
30   MONTCLAIR, NJ                     20,549           0         0           0       (100)          126,709           54,861         34,888       236,907
31   MONTPELIER, VT                        64           0         0           0       1,489           80,698           42,217         18,416       142,884
32   NCC, MD                          102,254           0         0           0      11,667           10,666          575,721      2,856,554     3,556,862
33   NCC UTILITY BUILDING, MD           2,345           0     1,875           0       6,171            2,366           58,945        394,732       466,434
34   OPERATIONS/                      538,704           0    34,041           0      58,911           21,656        1,094,413      5,554,222     7,301,947
     ROBERT BALL, MD
35   OSHKOSH, WI                            0           0         0         554            0         35,954           11,979          5,692         54,179
36   PASADENA, CA                           0           0         0           0       (100)         110,158           33,012         14,240        157,310
37   PAWTUCKET, RI                          0           0         0           0            0              0                0              0              0
38   PITTSBURG, KS                          0           0     2,538           0         (74)         48,211           24,064         24,705         99,444
39   PITTSBURGH, PA                         0           0     3,500           0       5,375          90,593           41,630         23,418        164,516
40   PRESQUE ISLE, ME                  42,245           0     5,291           0         647          75,449           61,132         12,700        197,464
41   QUINCY, IL                             0           0         0           0      10,567          42,184           17,945              0         70,696
42   RACINE, WI                             0           0         0         554            0         75,354           25,109         10,594        111,611
43   SHEBOYGAN, WI                        219           0         0         554            0         41,661           13,924          1,804         58,162
44   SUPPLY BLDG, MD                    5,979           0         0           0       9,414           3,842           89,034        219,766        328,035
45   TORRINGTON, CT                         0           0         0           0         111          29,742           13,022          5,364         48,239
46   VISALIA, CA                            0           0         0           0            0         94,911           34,169         26,688        155,768
47   WATERLOO, IA                           0           0     1,600           0       (200)          81,514           38,605              0        121,519
48   WEST BLDG - LOW, MD                2,520           0         0           0       2,222           1,012           26,665              0         32,419
49   WEST BLDG - HIGH, MD               8,399           0         0           0       7,331           3,333           88,383        241,553        348,999
50   WPSC, CA                         127,649           0         0           0      49,119              17          237,018        789,851      1,203,654
     FY 2008 Trust Fund Buildings   $1,081,777        $0    $63,746      $3,095    $397,411      $2,558,406       $4,759,580    $21,350,139    $30,214,154
     Rental Costs




           MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                                 G-2
         SSA Trust Fund Buildings Expenses – FY 2009
                                             Table G3 – SSA Trust Fund Building Expenses – FY 2009
          Office Location     Repair &     Rental    Real     Protection    Other      Operations       General &      Depreciation       Total
                              Alteration     of     Estate                                  &         Administrative      Cost
                                 Cost      Space     Tax                               Maintenance        Cost
                                                                                          Cost


 1   ALTMEYER BLDG, MD          $26,184        $0    $1,982         $843    $81,266         $5,899          $768,887         $2,620       $887,681
 2   ANNEX BLDG, MD              27,229         0     2,000            0     (1,935)         9,357           243,818      1,526,034       1,806,503
 3   ANNISTON, AL                     0         0         0            0       1,634        68,792            56,543         40,843         167,812
 4   AUSTIN, MN                       0         0         0            0           0        55,836            23,029         10,808          89,673
 5   BRIDGETON, NJ                    0         0         0            0       7,905        82,458            55,603         48,063         194,029
 6   BURLINGTON, IA                   0         0         0            0       (200)        65,469            39,033         12,001         116,303
 7   BURLINGTON, VT                   0         0       185            0         353        56,758            32,479         38,143         127,918
 8   CHAMBERSBURG, PA            16,607         0         0            0         691        75,457            42,757         16,910         152,422
 9   CHILD CARE CENTER,               0         0     1,000            0       1,069         1,999            20,060              0          24,128
     MD
10   DALLAS, TX                 106,987         0         0            0     11,962          93,299          101,988         47,828         362,064
11   EAST BLDG - HIGH, MD        13,757         0         0            0      2,350           5,512          141,641      1,018,749       1,182,009
12   EAST BLDG - LOW, MD          6,549         0         0            0      2,161           5,266           91,688            127         105,791
13   FALL RIVER, MA                   0         0         0            0      (115)          81,246           37,991         12,834         131,956
14   GADSDEN, AL                      0         0         0            0      1,097           5,799           13,974              0          20,870
15   GLPSC, IL                   31,290         0         0            0     43,761           2,430          391,689      1,338,156       1,807,326
16   GREENSBURG, PA                   0         0         0            0      1,518          70,992           34,056         11,153         117,719
17   HACKENSACK, NJ                   0         0         0            0      7,895         169,004           75,403         56,916         309,218
18   HAVERHILL, MA                    0         0         0            0      4,018          90,896           37,579         10,918         143,411
19   HAZELTON, PA                     0         0         0            0        712          62,107           29,290         60,152         152,261
20   HUNTINGTON PARK, CA              0         0         0            0      (100)         134,970           57,054         23,279         215,203
21   KANSAS CITY, KS                  0         0         0            0      (100)         123,551           61,062         28,693         213,206
22   LEWISTON, ID                     0         0     3,300            0          0          72,948           41,886          8,985         127,119
23   LITTLETON, NH                    0         0         0            0      1,516          81,694           48,008         22,828         154,046
24   MATPSC, PA                  14,022         0         0            0   132,321                0          967,472        848,156       1,961,971
25   METRO WEST, MD              26,021         0     2,500            0     97,161       (288,520)                0      8,066,082       7,903,244
26   MINNEAPOLIS, MN                  0         0       449            0   (17,020)         203,498           75,890          7,707         270,524
27   MONTCLAIR, NJ                3,061         0         0            0      4,446         110,737           50,492         32,283         201,019
28   MONTPELIER, VT                 255         0         0            0          0          67,830           38,826         19,229         126,140
29   NCC, MD                     36,627         0     2,000            0   (23,468)           9,537          156,404      2,925,428       3,106,528
30   NCC UTILITY BUILDING,        2,896         0         0            0    (2,959)             989            7,169        400,119         408,214
     MD
31   OPERATIONS/                 60,877         0    44,853            0   (22,861)         21,021           459,907      5,520,463       6,084,260
     ROBERT BALL, MD
32   OSHKOSH, WI                      0         0         0            0          0          9,307             3,605           1,423         14,335
33   PASADENA, CA                     0         0         0            0      (100)         96,364            33,716          12,698        142,678
34   PITTSBURG, KS                    0         0         0            0      1,852         48,648            23,630          25,083         99,213
35   PITTSBURGH, PA              29,619         0         0            0        838        106,544            65,064          18,900        220,965
36   PRESQUE ISLE, ME                 0         0     2,194            0      3,374         60,436            37,662          13,031        116,697
37   QUINCY, IL                       0         0         0            0         28         72,412            33,138               0        105,578
38   RACINE, WI                  87,908         0         0           45          0         63,291            64,021          10,851        226,116
39   SHEBOYGAN, WI                    0         0         0           45          0         60,350            25,240          10,236         95,871
40   SUPPLY BLDG, MD              7,347         0     2,000            0     19,338          2,538           205,926        215,323         452,472
41   TORRINGTON, CT                   0         0         0            0          0         47,202            21,877           5,429         74,508
42   VISALIA, CA                      0         0         0            0          0         74,448            30,695        (27,947)         77,196
43   WATERLOO, IA                   142         0         0            0      (200)         82,022            49,534               0        131,498
44   WEST BLDG - LOW, MD          3,576         0         0            0      1,250          1,085            39,304           (251)         44,964
45   WEST BLDG - HIGH, MD        10,007         0     2,000            0      5,492          3,578           140,103        236,643         397,823
46   WPSC, CA                   231,277         0    10,000            0     37,880              0           448,314      1,334,356       2,061,827
     FY 2009 Trust Fund        $742,238        $0   $74,463         $933   $404,830      $2,275,056       $5,423,507    $24,011,282     $32,932,309
     Buildings Rental Costs




         MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                            G-3
            SSA Trust Fund Buildings Expenses – FY 2010
                                             Table G4 – SSA Trust Fund Building Expenses – FY 2010
           Office Location    Repair &     Rental    Real        Protection    Other     Operations       General &      Depreciation      Total
                              Alteration     of     Estate                                    &         Administrative      Cost
                                 Cost      Space     Tax                                 Maintenance        Cost
                                                                                            Cost


 1   ALTMEYER BLDG, MD          $23,428        $0    $2,313           $857      $2,604         $2,737         $187,632        $12,321       $231,892
 2   ANNEX BLDG, MD              21,187         0     2,309              0      22,318          4,085          293,973      1,517,281       1,861,153
 3   ANNISTON, AL                     0         0          0             0       3,727         74,034           57,168         41,794         176,723
 4   AUSTIN, MN                       0         0          0           707         496        128,902           58,068         19,870         208,043
 5   BRIDGETON, NJ                    0         0          0             0      16,401        119,456           69,334         43,308         248,499
 6   BURLINGTON, IA                   0         0          0             0       (100)         33,686           21,278          5,951          60,815
 7   BURLINGTON, VT                   0         0          0             0       5,639         88,318           48,123         38,758         180,838
 8   CHAMBERSBURG, PA            38,586         0          0             0       1,158         75,142           50,869         16,853         182,608
 9   CHILD CARE CENTER, MD            0         0     2,277              0       6,358             55           15,028              1          23,719
10   DALLAS, TX                   4,500         0          0             0      18,048         63,346           34,344         48,935         169,173
11   EAST BLDG - HIGH, MD         5,130         0          0             0      36,323            212          245,578        842,082       1,129,325
12   EAST BLDG - LOW, MD          4,803         0          0             0       5,060            214           59,367              2          69,446
13   FALL RIVER, MA                 977         0          0             0         607         72,532           34,402         12,086         120,604
14   GLPSC, IL                        0         0          0             0       3,814            625           23,217      1,395,692       1,423,348
15   GREENSBURG, PA              29,896         0          0             0       1,798         64,453           39,796         14,788         150,731
16   HACKENSACK, NJ                   0         0          0             0      17,282        215,898           98,925         52,500         384,605
17   HAVERHILL, MA                4,639         0          0             0       1,235        102,815           39,764         11,635         160,088
18   HAZELTON, PA                     0         0          0             0       6,657         57,773           27,268         60,121         151,819
19   HUNTINGTON PARK, CA              0         0          0             0       (100)        120,987           60,866         22,542         204,295
20   KANSAS CITY, KS                  0         0          0             0       3,274        124,710           59,791         28,683         216,458
21   LEWISTON, ID                     0         0          0             0           0         73,175           35,639          8,526         117,340
22   LITTLETON, NH                    0         0          0             0       7,035         79,335           43,149         21,910         151,429
23   MATPSC, PA                  24,271         0     2,500              0      49,385              0          446,064        847,213       1,369,433
24   METRO WEST, MD              10,059         0     3,001              0      59,746      (242,322)                0      5,372,802       5,203,286
25   MINNEAPOLIS, MN                  1         0          0           342           0        215,012           98,115         34,981         348,451
26   MONTCLAIR, NJ                    0         0          0             0       9,592        118,774           54,536         31,519         214,421
27   MONTPELIER, VT                   0         0        (1)             0         176         65,966           34,254         19,647         120,042
28   NCC, MD                     26,565         0          0             0      19,831            807          277,460      2,033,415       2,358,078
29   NCC UTILITY BUILDING,        2,255         0     2,975              0       2,282             79           44,841        394,733         447,165
     MD
30   OPERATIONS/                 45,464         0            0            0     47,833          1,998          561,377      5,246,869       5,903,541
     ROBERT BALL, MD
31   PASADENA, CA                      0        0         0              0       (100)       100,947            40,925         11,099        152,871
32   PITTSBURG, KS                   462        0         0              0       (100)        57,470            28,067         25,459        111,358
33   PITTSBURGH, PA                  346        0         0              0       1,546        83,637            38,095         14,181        137,805
34   PRESQUE ISLE, ME                  0        0         0              0         946        63,008            33,077         13,413        110,444
35   QUINCY, IL                      391        0         0              0          80        64,366            27,313              0         92,150
36   RACINE, WI                   11,038        0         0            634           0        98,397            49,378         17,151        176,598
37   SHEBOYGAN, WI                     0        0         0            634           0        85,641            38,721         13,754        138,750
38   SUPPLY BLDG, MD               5,509        0         0              0       5,744           229            67,636        208,164        287,282
39   TORRINGTON, CT                  471        0         0              0          39        51,557            24,211          5,469         81,747
40   WEST BLDG - LOW, MD           3,101        0         0              0       2,521         1,443            41,624              1         48,690
41   WEST BLDG - HIGH, MD          7,542        0     2,333              0       8,699         2,523           124,292        229,779        375,168
42   WPSC,CA                   (242,193)        0         0              0      70,735             0             5,283      1,124,060        957,885
     FY 2010 Trust Fund         $28,428        $0   $17,707          $3,174   $438,589     $2,272,022       $3,638,848    $19,859,348     $26,258,116
     Buildings Rental Costs




            MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                           G-4
           SSA Trust Fund Buildings Expenses – FY 2011
                                                 Table G5 – SSA Trust Fund Building Expenses – FY 2011
            Office Location         Repair &     Rental    Real     Protection    Other      Operations &      General &      Depreciation      Total
                                    Alteration     of     Estate                             Maintenance     Administrative      Cost
                                       Cost      Space     Tax                                  Cost             Cost
 1   ALTMEYER BLDG, MD                $17,649        $0        $0        $816     $12,059          $22,264        $125,222       $253,067      $431,077
 2   ANNEX BLDG, MD                    20,494         0         0          351     18,833           34,308         176,152       1,517,282     1,767,420
 3   ANNISTON, AL                           0         0         0        2,276      (200)           85,601          69,481          36,994       194,152
 4   AUSTIN, MN                             0         0         0            0           0          77,318          38,560           7,794       123,672
 5   BRIDGETON, NJ                          0         0     2,500            0     12,096          117,085          65,187          43,308       240,176
 6   BURLINGTON, VT                       112         0         0            0      1,704           98,398          53,927          38,878       193,019
 7   CHAMBERSBURG, PA                       0         0         0            0      (200)           57,330          23,875          16,850        97,855
 8   CHILD CARE CENTER, MD            146,397         0         0           99     12,706              889         455,669           3,682       619,442
 9   DALLAS, TX                             0         0         0            0      1,350           61,974          26,050          40,390       129,764
10   EAST BLDG - HIGH, MD               4,961         0         0        2,520      4,503            7,374          46,460         842,086       907,904
11   EAST BLDG - LOW, MD                4,669         0         0        1,581      4,272            7,145          42,331               0        59,998
12   FALL RIVER, MA                     3,233         0         0            6     14,276           83,115          46,916           8,739       156,285
13   GLPSC, IL                            271         0     3,000        4,243           0          36,570         227,939       1,217,627     1,489,650
14   GREENSBURG, PA                         0         0         0            0        (88)         157,907         108,579          37,170       303,568
15   HAVERHILL, MA                          0         0         0            0        793           97,311          41,224          11,604       150,932
16   HAZELTON, PA                           0         0         0            6     62,349           71,127          54,629          60,074       248,185
17   HUNTINGTON PARK, CA               17,050         0         0            0      1,841          146,383         103,750          22,640       291,664
18   KANSAS CITY, KS                   12,996         0         0            0      (200)          134,959          77,596          28,684       254,035
19   LEWISTON, ID                           0         0         0            0           0          73,860          36,643           8,539       119,042
20   LITTLETON, NH                     49,564         0         0            0      1,776           81,990          72,194          15,905       221,429
21   MATPSC, PA                        15,295         0         0            0    190,982           61,542         299,597         830,932     1,398,348
22   METRO WEST, MD                     4,722         0         0        1,917      7,576        (306,290)           1,444       2,451,634     2,161,003
23   MINNEAPOLIS, MN                        0         0         0            0     10,425          232,545         116,213          34,984       394,167
24   MONTCLAIR, NJ                      4,500         0         0            0      5,944           91,937          44,261          19,968       166,610
25   MONTPELIER, VT                         0         0         0            0        121           71,320          38,826          17,526       127,793
26   NCC, MD                           26,090         0         0            0     24,980           32,572         198,445         329,882       611,969
27   NCC UTILITY BUILDING, MD           2,178         0         0            0      1,943            3,104          17,227         396,850       421,302
28   OPERATIONS/                       43,983         0     3,487        9,945     40,353           67,166         394,132       5,235,452     5,794,518
     ROBERT BALL, MD
29   PASADENA, CA                      19,906         0         0            0      (100)         124,722           67,110          11,033       222,671
30   PITTSBURG, KS                     16,526         0         0            0     22,389           50,283          38,842          13,821       141,861
31   PITTSBURGH, PA                    39,892         0         0            0        122         115,450           67,588          12,571       235,623
32   PRESQUE ISLE, ME                       0         0         0            3        615           60,676          33,701          13,362       108,357
33   QUINCY, IL                         1,239         0     3,000            0      (200)           74,546          37,602           3,862       120,049
34   RACINE, WI                        22,560         0     3,633          829      (200)           81,451          44,698           2,935       155,906
35   SHEBOYGAN, WI                          0         0    10,489            0      (200)           52,880          29,050           6,690        98,909
36   SUPPLY BLDG*                       5,682         0         0            0      5,124            8,411          45,754         305,390       370,361
37   TORRINGTON, CT                         0         0         0            6          0           50,536          24,798           5,451        80,791
38   WEST BLDG - LOW, MD                2,391         0     3,360            0      2,108            4,561          28,938               0        41,358
39   WEST BLDG - HIGH, MD               7,887         0         0            0      7,361           14,460          70,611         229,776       330,095
40   WPSC, CA                         120,948         0         0            0    278,389         (95,097)         320,818       1,175,382     1,800,440
     FY 2011 Trust Fund Buildings    $611,195        $0   $29,469      $24,598   $745,602      $2,249,683       $3,812,039     $15,308,814   $22,781,400
     Rental Costs




           MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                               G-5
                                                                                                           Appendix H

 Inventory of Remaining Trust Fund Buildings
                 Table H1 - SSA Trust Fund Buildings – Inventory of Remaining Trust Fund Buildings
Building Count      Acquisition Year                          Office Location                           Land Cost        Building Cost

       1                  1970           FALL RIVER, MA                                                     $72,209            $411,619
       2                  1972           BURLINGTON, VT                                                     $96,265            $387,163
       3                  1973           MONTPELIER, VT                                                     $55,059            $369,197
       4                  1970           PRESQUE ISLE, ME                                                   $14,179            $362,801
       5                  1970           LITTLETON, NH                                                      $17,169            $339,046
       6                  1969           HAVERHILL, MA                                                      $43,885            $305,232
       7                  1969           TORRINGTON, CT                                                     $53,744            $168,665
       8                  1973           MONTCLAIR, NJ                                                         $267            $602,179
       9                  1970           BRIDGETON, NJ                                                      $45,363            $220,362
       10                 1970           PITTSBURGH, PA                                                    $108,150            $440,281
       11                 1972           GREENSBURG, PA                                                    $111,551            $314,344
       12                 1973           HAZELTON, PA                                                       $17,341            $257,320
       13                 1972           CHAMBERSBURG, PA                                                   $41,343            $220,344
       14                 1976           MATPSC, PA*                                                             $0         $30,391,024
       15                 1968           ANNISTON, AL                                                       $67,990            $462,405
       16                 1970           MINNEAPOLIS, MN                                                   $347,470            $472,863
       17                 1969           AUSTIN, MN                                                         $43,234            $314,159
       18                 1973           QUINCY, IL                                                         $50,607            $303,884
       19                 1973           RACINE, WI                                                         $71,390            $268,476
       20                 1973           SHEBOYGAN, WI                                                      $60,213            $147,559
       21                 1976           GLPSC, IL*                                                              $0         $50,349,963
       22                 1983           DALLAS, TX                                                        $165,941            $495,984
       23                 1973           KANSAS CITY, KS                                                    $85,178            $487,067
       24                 1972           PITTSBURG, KS                                                      $56,316            $299,244
       25                 1970           GRAND FORKS, ND                                                   $106,542            $200,987
       26                 1970           HUNTINGTON PARK, CA                                               $215,088            $755,034
       27                 1977           PASADENA, CA                                                      $222,050            $595,913
       28                 1975           WPSC, CA *                                                              $0         $36,540,277
       29                 1983           LOS ANGELES, CA (BOYLE HEIGHTS)                                   $475,605          $1,356,697
       30                 1972           LEWISTON, ID                                                       $19,800            $496,964
       31                 1973           WEST BLDG – LOW                                                          **        $13,365,127
       32                                WEST BLDG – HIGH                                                         **                  **
       33                 1971           EAST BLDG – LOW                                                          **         $9,157,468
       34                                EAST BLDG – HIGH                                                         **                  **
       35                 1960           ALTMEYER BLDG                                                     $482,703         $27,808,120
       36                 1960           OPERATIONS/ROBERT BALL                                                   **                  **
       37                 1965           ANNEX BLDG                                                               **         $5,852,000
       38                  1971           SUPPLY BLDG                                                              **        $2,013,858
       39                  1980           METRO WEST *                                                            $0      $111,707,584
       40                  2002           CHILD CARE CENTER                                                        **        $8,077,661
       41                  1973           MISC STRUCTURES- MAINTENANCE WAREHOUSE                                  $0         $1,671,715
       42                                 SALT DOME II                                                             **                  **
       43                  1980           NCC *                                                                    **      $72,434,846
       44                                 NCC UTILITY BUILDING                                                     **                  **
       45                  1980           NCC CHECKPOINT BUILDING                                                  **        $2,439,000
Total Remaining Trust Fund Building, as of April 25, 2012                                                 $3,146,652      $382,864,432
* Purchase Contract
** The Land Costs for the complex buildings ($482,703) are listed with the Altmeyer Bldg. The other buildings were built on property
SSA already owned. For the Building Costs, the total costs of $13,365,127 for the West High and Low buildings are listed with the Low
building. The total costs of $9,157,468 for the East High and Low buildings are listed with the Low building. SSA cannot differentiate
the costs between the buildings. SSA does not track building costs for the Salt Dome and NCC Utility Building as they are negligible.




 MoU Between GSA and SSA for Space and Service (A-15-13-23043)
                                                                                                                       Appendix I

   Inventory of Disposed Trust Fund Buildings
                      Table I1 - SSA Trust Fund Buildings – Inventory of Disposed Trust Fund Buildings
 Disposed        Acquisition      Disposed Buildings       Land Costs        Building         Disposal Date       Method Of Disposal       Sold
 Building           Year                                                      Costs*                                                      Amount
  Count
     1               1970         Pawtucket, RI                $51,340         $314,634     March 29, 2010       Sale - Online Auction     $435,000
     2               1970         Irvington, NJ                $87,098         $457,594     April 10, 2006       Conveyed - Corrections           $0
     3               1985         Monticello, NY               $35,154         $974,659     August 19, 2005      Conveyed - Education             $0
     4               1970         Watertown, NY                $31,386         $385,154     July 21, 2006        Conveyed - Homeless              $0
     5               1970         Olean, NY                    $28,100         $528,985     June 7, 2007         Sale                      $265,000
     6               1970         Hackensack, NJ               $80,478         $616,433     April 26, 2011       Sale                     $1,620,000
     7               1970         Ambridge, PA                 $49,164         $211,266     October 21, 2002     Conveyed - Education             $0
     8               1970         Beckley, WV                  $55,543         $250,861     November 14, 2008    Conveyed - Education             $0
     9               1973         Bristol, PA                  $41,392         $414,185     May 13, 2003         Conveyed - Education             $0
    10               1973         Easton, PA                   $29,040         $320,223     August 24, 2005      Conveyed - Education             $0
    11               1975         Lynchburg, VA                $24,377         $370,791     April 11, 2004       Conveyed - Homeless              $0
    12               1970         Marlow Heights, MD          $100,938         $239,123     February 17, 2005    Conveyed - Education             $0
    13               1970         Philadelphia, PA            $196,284         $371,298     December 1, 2007     Sale                      $455,000
    14               1970         Salisbury, MD                $71,024         $245,977     June 15, 2005        Conveyed - Health                $0
    15               1970         Staunton, VA                 $23,268         $149,764     August 23, 2002      Conveyed - Health                $0
    16               1970         Welch, WV                    $59,100         $167,222     April 8, 2003        Conveyed - Education             $0
    17               1970         Westchester, PA              $49,216         $210,884     November 5, 2004     Conveyed - Homeless              $0
    18               1973         Wheeling, WV                 $63,170         $286,561     February 28, 2005    Conveyed - Homeless              $0
    19               1973         Corbin, KY                   $88,501         $660,783     September 9, 2003    Conveyed - Education             $0
    20               1968         Gadsden, AL                  $67,516         $320,377     April 4, 2008        Conveyed- Education              $0
    21               1972         Gastonia, NC                 $39,671         $226,433     February 22, 2006    Conveyed - Education             $0
    22               1970         Pikeville, KY                $60,156         $209,800     March 23, 2005       Conveyed - Education             $0
    23               1972         Rock Hill, SC                $33,707         $176,946     July 30, 2002        Conveyed - Homeless              $0
    24               1977         Elkhart, IN                  $95,112         $437,239     January 22, 2004     Sale - Online Auction     $135,000
    25               1973         Janesville, WI               $76,772         $211,951     July 10, 2006        Sale - Online Auction     $225,000
    26               1973         Oshkosh, WI                  $58,189         $238,141     July 27, 2009        Sale- Online Auction      $130,000
    27               1973         Peoria, IL                  $157,343         $386,336     April 6, 2006        Conveyed - Education             $0
    28               1970         Peru, IL                      $9,735         $583,124     October 31, 2006     Conveyed - Other                 $0
    29               1973         Pontiac, MI                  $43,686         $485,230     June 29, 2004        Sale - Sealed Bid         $735,000
    30               1970         Rock Island, IL             $101,170         $237,493     April 5, 2005        Conveyed - Corrections           $0
    31               1973         Rockford, IL                $101,038         $249,451     August 24, 2000      Conveyed - Other                 $0
    32               1973         Flint, MI                   $170,077         $539,494     September 20, 2011   Sale - Online Auction       $75,000
     33              1973         Ardmore, OK                  $66,137         $165,576     July 14, 2005        Sale - Online Auction     $290,000
     34              1972         Baton Rouge, LA              $98,370         $349,050     January, 2004        Conveyed - Education            $0
     35              1969         Brownsville, TX              $58,687         $291,478     October 21, 2002     Sale - Online Auction      $44,135
     36              1970         El Dorado, AR                $65,916         $325,776     April 7, 2004        Sale - Online Auction     $305,000
     37              1972         Helena, AR                   $50,835         $177,426     May 3, 2005          Conveyed - Homeless             $0
     38              1977         Hot Springs, AR              $47,485         $394,138     August 13, 2003      Conveyed - Homeless             $0
     39              1969         Sherman, TX                  $32,918         $493,293     October 24, 2005     Sale - Online Auction     $380,000
     40              1973         Wichita Falls, TX            $71,323         $499,582     July 6, 2006         Conveyed - Health               $0
     41              1977         Joplin, MO                   $45,236         $486,668     July 26, 2007        Conveyed - Homeless             $0
     42              1972         Scottsbluff, NE              $58,809         $154,880     June 30, 2005        Conveyed - Homeless             $0
     43              1972         Topeka, KS                   $71,512         $343,067     December 7, 2006     Conveyed - Health               $0
     44              1972         Springfield, MO              $87,000         $935,632     July 3, 2007         Conveyed - Homeless             $0
     45              1972         Waterloo, IA                $102,590         $388,255     October 4, 2010      Sale - Online Auction      $92,270
     46              1972          Burlington, IA                 $13,466        $173,509   January 14, 2011     Sale - Online Auction       $40,013
     47              1972          Provo, UT                      $50,362        $214,882   October 1, 2000      Conveyed - Other                 $0
     48              1973          Modesto, CA                   $105,258        $723,269   July 10, 2004        Conveyed - Homeless              $0
     49              1969          Prescott, AZ                   $40,456        $155,238   August 9, 2002       Conveyed - Other                 $0
     50              1973          Visalia, CA                    $51,650        $576,922   September 2, 2009    Conveyed - Education             $0
Total Disposed Buildings, as of April 25, 2012                 $3,296,755     $18,327,052                                                 $5,226,418
* There are rounding differences of $1 in the totals. The original schedules have cents.




   MoU Between GSA and SSA for Space and Service (A-15-13-23043)
                                                                                              Appendix J

   Social Security Administration Rental Costs by
   Property Type – Fiscal Years 2007 to 2011

      Table J1 – SSA Rental Costs by GSA by Property Type – FYs 2007* Through FY 2011
      Type of Property            2007* Rental      2008 Rental        2009 Rental        2010 Rental      2011 Rental
                                     Costs*            Costs              Costs              Costs            Costs
1 – Federal Owned                  $63,973,952       $74,804,564        $94,431,201        $77,798,338      $74,529,603
2 – Leased                         453,312,915       474,525,766        513,058,738        536,876,536      564,000,429
4 – Permit for Federally                 4,508                 0                   0                 0                0
Owned
5 – Purchase Contract                 2,536,985         3,342,287          2,678,553         2,673,361         2,613,751
6 – Leased - U.S. Postal                      0                 0                  0                 0           231,308
Service Controlled Space
8 – Portfolio Lease (Leased           4,312,634         4,659,224          2,670,466         5,928,047         3,882,025
building, billed as Federal)
Subtotal                          $524,140,994      $557,331,841        $612,838,958     $623,276,282      $645,257,116
Rounding Difference                         (5)              247                  119              (8)             (101)
Total before adjustments          $524,140,989      $557,332,088        $612,839,077     $623,276,274      $645,257,015
Adjustments **                                0        9,774,836         (28,328,287)                0                 0
Total Rental Costs                $524,140,989      $567,106,924        $584,510,790     $623,276,274      $645,257,015
Operation & Maintenance            $59,506,115       $59,604,158         $64,537,151      $58,992,354       $87,920,804
(O&M) Costs for Delegated
Buildings Paid by SSA
Total Expenses                    $583,647,104      $626,711,082       $649,047,941      $682,268,628      $733,177,819
*Our analysis of FY 2007 rental costs was based on limited accounting information. Occupancy right codes were classified
using Customer Billing Record numbers, and not building numbers as used in FY 2008 through 2011 data.
**According to GSA staff (applicable to FY 2008 and 2009), actual cost was calculated by taking the lesser of the two
amounts between the total expenses pulled from GSA Cost Accounting Systems and the GSA Rent on the Web (RoW)
agency bill.




   MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                   J-1
             SSA Rental Costs by Property Type – FY 2008
                                Table J2 – SSA Rental Costs by GSA by Property Type – FY 2008
Type of          Number      Repair &         Rental of         Real        Protection     Other        Operations          General &        Depreciation           Total
Property            of       Alteration        Space           Estate                                        &            Administrative        Cost
                Buildings       Cost                            Tax                                     Maintenance           Cost
                                                                                                           Cost
1–                    197    $1,961,311            $3,815     $103,811       $676,397    $1,026,332      $18,857,227         $12,692,074      $39,483,597         $74,804,564
Federal
Owned
2 – Leased          1,572       167,759      442,995,653       502,491        108,123         33,791        6,025,958         24,562,141           129,850        474,525,766

4 – Permit              1               0                 0             0           0              0                0                   0                0                  0
for
Federally
Owned
5–                      9         98,598              736          308        153,818         35,758        1,212,830            770,318         1,069,921          3,342,287
Purchase
Contract
6 – Leased              0               0                 0             0           0              0                0                   0                0                  0
- U.S.
Postal
Service
Controlled
Space
8–                      2         33,718        2,295,239        7,014           8,809         2,544          808,682            305,107         1,198,111          4,659,224
Portfolio
Lease
Subtotal            1,781    $2,261,386     $445,295,443      $613,624       $947,147    $1,098,425      $26,904,697         $38,329,640      $41,881,479     $557,331,841

Rounding difference                                                                                                                                                     $247
Total before adjustments                                                                                                                                      $557,332,088
Adjustments *                                                                                                                                                       9,774,836

FY 2008 Rental Costs by Property Type                                                                                                                         $567,106,924
O&M Costs for Delegated Buildings Paid by SSA                                                                                                                  $59,604,158
Total Expenses                                                                                                                                                $626,711,082
* According to GSA staff (applicable to FY 2008 and 2009), actual cost was calculated by taking the lesser of the two amounts between the total expenses pulled from GSA
cost accounting systems and the GSA RoW agency bill.




             MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                                                  J-2
              SSA Rental Costs by Property Type – FY 2009
                                Table J3 – SSA Rental Costs by GSA by Property Type – FY 2009
  Type of         Number       Repair &        Rental of         Real        Protection      Other       Operations         General &        Depreciation            Total
  Property           of        Alteration       Space           Estate                                        &           Administrative        Cost
                 Buildings        Cost                           Tax                                     Maintenance          Cost
                                                                                                            Cost
1 – Federal            195     $2,159,576         ($3,402)     $117,317       $785,653      $951,915      $19,176,651        $14,930,277      $56,313,214          $94,431,201
Owned
2 – Leased            1,565      124,977      480,298,690        473,891       113,231      (166,974)       5,666,118         26,248,765          300,040          513,058,738

4 – Permit for             1            0                  0             0            0              0               0                  0                0                     0
Federally
Owned
5 – Purchase               8       79,286                  0         260        53,826         58,415         975,627            610,153          900,986            2,678,553
Contract
6 – Leased -               0            0                  0             0            0              0               0                  0                0                     0
U.S. Postal
Service
Controlled
Space
8 – Portfolio              1       85,842        1,237,163               0      20,049        213,626         808,272            244,709           60,805            2,670,466
Lease
Subtotal              1,770    $2,449,681    $481,532,451      $591,468       $972,759    $1,056,982      $26,626,668        $42,033,904      $57,575,045      $612,838,958

Rounding difference                                                                                                                                                          119
Total before adjustments                                                                                                                                       $612,839,077
Adjustments *                                                                                                                                                  (28,328,287)
FY 2009 Rental Costs by Property Type                                                                                                                          $584,510,790

O&M Costs for Delegated Buildings Paid by SSA                                                                                                                      $64,537,151
Total Expenses                                                                                                                                                 $649,047,941
* According to GSA staff (applicable to FY 2008 and 2009), actual cost was calculated by taking the lesser of the two amounts between the total expenses pulled from GSA
cost accounting systems and the GSA RoW agency bill.




              MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                                                  J-3
             SSA Rental Costs by Property Type – FY 2010
                               Table J4 – SSA Rental Costs by GSA by Property Type – FY 2010
Type of        Number       Repair &      Rental of         Real        Protection    Other       Operations       General &      Depreciation           Total
Property          of        Alteration     Space           Estate                                      &         Administrative      Cost
              Buildings        Cost                         Tax                                   Maintenance        Cost
                                                                                                      Cost
1–                    185   $1,394,062          $1,826     $71,264        $841,437   $1,229,236    $19,363,145      $14,498,339    $40,399,029         $77,798,338
Federal
Owned
2–                1,585       (10,458)    500,003,836      528,398         119,698     520,911       6,150,447       29,483,406         80,298         536,876,536
Leased
4–                      1            0                0             0            0            0             0                 0              0                    0
Permit for
Federally
Owned
5–                      7       91,464                0      3,907          79,859      38,503        922,120           681,021        856,487           2,673,361
Purchase
Contract
6–                      0            0                0             0            0            0             0                 0              0                    0
Leased -
U.S.
Postal
Service
Controlle
d Space
8–                      1      346,033      2,344,117               0       37,425     385,279       1,102,662          409,207      1,303,324           5,928,047
Portfolio
Lease
Subtotal          1,779     $1,821,101   $502,349,779     $603,569      $1,078,419   $2,173,929    $27,538,374      $45,071,973    $42,639,138     $623,276,282

Rounding difference                                                                                                                                              (8)
FY 2010 Rental Costs by Property Type                                                                                                              $623,276,274
O&M Costs for Delegated Buildings Paid by SSA                                                                                                           58,992,354
Total Expenses                                                                                                                                     $682,268,628




             MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                                       J-4
             SSA Rental Costs by Property Type – FY 2011
                                Table J5 – SSA Rental Costs by GSA by Property Type – FY 2011
Type of       Number of       Repair &          Rental of         Real        Protection    Other       Operations       General &      Depreciation       Total
Property      Buildings       Alteration         Space           Estate                                      &         Administrative      Cost
                                 Cost                             Tax                                   Maintenance        Cost
                                                                                                           Cost


1–                     178    $1,722,950           ($2,514)      $79,180        $712,509   $2,562,982    $18,450,967      $15,071,836    $35,931,693     $74,529,603
Federal
Owned
2 – Leased            1,562      964,903     525,322,277         776,659         175,545    (467,017)      5,228,818       31,930,368         68,876     564,000,429

4 – Permit               1              0                   0             0            0            0             0                 0              0               0
for
Federally
Owned
5–                       7      (14,111)                    0     10,027          88,569      23,468        916,145           674,224        915,429       2,613,751
Purchase
Contract
6 – Leased               5              0          185,547                0            0        (104)        14,847            30,653            365        231,308
- U.S.
Postal
Service
Controlled
Space
8–                       1       112,733         1,449,546                0       22,293        4,096       740,138           326,266      1,226,953       3,882,025
Portfolio
Lease
Subtotal              1,754   $2,786,475    $526,954,856        $865,866        $998,916   $2,123,425    $25,350,915      $48,033,347    $38,143,316    $645,257,116

Rounding Difference                                                                                                                                            (101)
FY 2011 Rental Costs by Property Type                                                                                                                   $645,257,015
O&M Costs for Delegated Buildings Paid by SSA                                                                                                             87,920,804
Total Expenses                                                                                                                                          $733,177,819




             MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                                        J-5
                                                                     Appendix K

Social Security Administration Delegated
Buildings
                          Table K1 - SSA Delegated Buildings
  Count                Office Location             Federal/Leased   Source Of Funding
    1       ALTMEYER BLDG, MD                          Federal         Trust Fund
    2       OPERATIONS/ROBERT BALL, MD                 Federal         Trust Fund
    3       ANNEX BLDG, MD                             Federal         Trust Fund
    4       SUPPLY BLDG, MD                            Federal         Trust Fund
    5       EAST BLDG - LOW, MD                        Federal         Trust Fund
    6       EAST BLDG - HIGH, MD                       Federal         Trust Fund
    7       NCC, MD                                    Federal         Trust Fund
    8       WEST BLDG - LOW, MD                        Federal         Trust Fund
    9       WEST BLDG - HIGH, MD                       Federal         Trust Fund
    10      UTILITY, MD                                Federal         Trust Fund
    11      SSA METRO WEST, MD                         Federal         Trust Fund
    12      SECURITY WEST BLDG,* MD                    Leased
    13      CHILD CARE CENTER, MD                      Federal         Trust Fund
    14      FEDERAL BUILDING (WBDOC), PA               Federal
    15      FRANK HAGEL BUILDING (WPSC), CA            Federal         Trust Fund
    16      JOSEPH P ADDABBO FEDERAL                   Federal
            BUILDING (NEPSC), NY
    17      MATPSC, PA                                 Federal         Trust Fund
    18        HAROLD WASHINGTON CENTER, IL             Federal         Trust Fund
              (GLPSC)
* Delegated Lease




MoU Between GSA and SSA for Space and Service (A-15-13-23043)
                                                                                                               Appendix L

             Social Security Administration Delegated
             Buildings Expenses – Fiscal Years 2008 to
             2011

         Table L1 – SSA Delegated Building Expenses and SSA Direct Costs for Operations and Maintenance – FYs 2008 Through FY 2011
Fiscal   Repair &      Rental of     Real     Protect    Other      Operations    General &    Depreciation   GSA Rental    Operation &     Total Costs
 Year    Alteration     Space       Estate     -ion                      &          Admin-        Cost        Cost to SSA   Maintenance     both paid to
            Cost                     Tax                            Maintenance    istrative                                (O&M) Costs       GSA and
                                                                       Cost          Cost                                        for           Paid
                                                                                                                             Delegated       Separately
                                                                                                                              Buildings       by SSA
                                                                                                                            Paid by SSA
2008     $965,006     $13,536,591   $39,666    $804     $333,285     ($130,648)   $4,481,593   $26,609,577    $45,835,874    $59,604,158    $105,440,032
2009     978,493      13,706,580    68,335     953       362,551      (433,970)   5,644,930    42,110,107     62,437,979       64,537,151    126,975,130
2010     661,907      13,725,782    17,708    5,595      402,059      (133,884)   5,157,233    25,668,568     45,504,968       58,992,354    104,497,322
2011     965,648      13,714,009     9,847    21,472    1,778,822     (100,517)   5,821,649    20,911,270     43,122,200       87,920,804    131,043,004




             MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                           L-1
      SSA Delegated Buildings Expenses – FY 2008
                                               Table L2 – SSA Delegated Building Expenses – FY 2008
Delegated SSA      Repair &        Rental of        Real        Protection    Other     Operations       General &       Depreciation   Total Cost
  Buildings        Alteration       Space          Estate                                    &         Administrative       Cost
                      Cost                          Tax                                 Maintenance        Cost
                                                                                           Cost


ALTMEYER             $22,311                $0            $0          $804    $25,979        $5,497          $252,538         $11,990      $319,119
BLDG, MD
ANNEX BLDG,           21,792                 0              0            0     19,211         8,737           230,595       1,524,927      1,805,262
MD
EAST BLDG -             6,011                0       1,875               0      5,300         2,410            72,256       1,165,330      1,253,182
HIGH, MD
EAST BLDG -             5,377                0       1,875               0      4,740         2,156            65,534           1,591         81,273
LOW, MD
FEDERAL               44,540                 0              0            0     25,235             0           321,682         853,038      1,244,495
BUILDING, PA
FRANK HAGEL          127,649                 0              0            0     49,119            17           237,018         789,851      1,203,654
FEDERAL
BUILDING, CA
H                       1,032                0              0            0     23,026         1,533            21,150       1,226,513      1,273,254
WASHINGTON
CENTER, IL
JOSEPH P.               9,417                0              0            0      2,420       (71,361)               (2)      5,062,567      5,003,041
ADDABBO FB,
NY
MIDATLANTIC           58,000                 0              0            0     51,346             0           504,127         882,680      1,496,153
SOCIAL SEC.
CNTR, PA
OPERATIONS           538,704                 0      34,041               0     58,911        21,656         1,094,413       5,554,222      7,301,947
BUILDING/
ROBERT BALL,
MD
SECURITY                    0      13,536,591               0            0   (19,764)             0           668,106             12      14,184,945
WEST BLDG,
MD
SSA METRO               8,676                0              0            0     29,957      (122,512)           78,611       5,824,251      5,818,983
WEST, MD
SUPPLY BLDG,            5,979                0              0            0      9,414         3,842            89,034         219,766       328,035
MD
UTILITY BLDG-           2,345                0       1,875               0      6,171         2,366            58,945         394,732       466,434
N COMPC, MD
WEST BLDG –             8,399                0              0            0      7,331         3,333            88,383         241,553       348,999
HIGH, MD
WEST BLDG -             2,520                0              0            0      2,222         1,012            26,665               0         32,419
LOW, MD
WOODLAWN                    0                0              0            0     21,000             0            96,817               0       117,817
CHILD CARE
CENTER, MD
WOODLAWN             102,254                 0              0            0     11,667        10,666           575,721       2,856,554      3,556,862
COMPUTER
BLDG, MD
FY 2008             $965,006      $13,536,591      $39,666            $804   $333,285     ($130,648)       $4,481,593     $26,609,577    $45,835,874
Delegated
Buildings Rental
Costs
O&M Costs for Delegated Buildings Paid by SSA                                                                                            $59,604,158
Total Costs both paid to GSA and Paid Separately by SSA                                                                                 $105,440,032




      MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                                     L-2
      SSA Delegated Buildings Expenses – FY 2009
                                               Table L3 – SSA Delegated Building Expenses – FY 2009
Delegated SSA      Repair &        Rental of        Real        Protection    Other     Operations       General &      Depreciation   Total Cost
  Buildings        Alteration       Space          Estate                                    &         Administrative      Cost
                      Cost                          Tax                                 Maintenance        Cost
                                                                                           Cost


ALTMEYER             $26,184                $0      $1,982            $843    $81,266        $5,899          $768,887         $2,620      $887,681
BLDG, MD
ANNEX BLDG,           27,229                 0       2,000               0    (1,935)         9,357           243,818      1,526,034      1,806,503
MD
EAST BLDG -           13,757                 0              0            0      2,350         5,512           141,641      1,018,749      1,182,009
HIGH, MD
EAST BLDG -             6,549                0              0            0      2,161         5,266            91,688           127        105,791
LOW, MD
FEDERAL                 4,267                0              0            0      1,876             0            40,607        901,224       947,974
BUILDING, PA
FRANK HAGEL          231,277                 0      10,000               0     37,880             0           448,314      1,334,356      2,061,827
FEDERAL
BUILDING, CA
H                     31,290                 0              0            0     43,761         2,430           391,689      1,338,156      1,807,326
WASHINGTON
CENTER, IL
JOSEPH P.            476,567                 0              0          110    (3,807)      (214,661)          867,444     17,776,870     18,902,523
ADDABBO FB,
NY
MIDATLANTIC           14,022                 0              0            0    132,321             0           967,472        848,156      1,961,971
SOCIAL SEC.
CNTR, PA
OPERATIONS            60,877                 0      44,853               0   (22,861)        21,021           459,907      5,520,463      6,084,260
BUILDING/
ROBERT BALL,
MD
SECURITY                    0      13,706,580               0            0    (8,344)             0           654,497              8     14,352,741
WEST BLDG,
MD
SSA METRO             26,021                 0       2,500               0     97,161      (288,520)                0      8,066,082      7,903,244
WEST, MD
SUPPLY BLDG,            7,347                0       2,000               0     19,338         2,538           205,926        215,323       452,472
MD
UTILITY BLDG-           2,896                0              0            0    (2,959)           989             7,169        400,119       408,214
N COMPC, MD
WEST BLDG –           10,007                 0       2,000               0      5,492         3,578           140,103        236,643       397,823
HIGH, MD
WEST BLDG -             3,576                0              0            0      1,250         1,085            39,304          (251)         44,964
LOW, MD
WOODLAWN                    0                0       1,000               0      1,069         1,999            20,060              0         24,128
CHILD CARE
CENTER, MD
WOODLAWN              36,627                 0       2,000               0   (23,468)         9,537           156,404      2,925,428      3,106,528
COMPUTER
BLDG, MD
FY 2009             $978,493      $13,706,580      $68,335            $953   $362,551     ($433,970)       $5,644,930    $42,110,107    $62,437,979
Delegated
Buildings Rental
Costs
O&M Costs for Delegated Buildings Paid by SSA                                                                                           $64,537,151
Total Costs both paid to GSA and Paid Separately by SSA                                                                                $126,975,130




      MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                                    L-3
      SSA Delegated Buildings Expenses – FY 2010
                                              Table L4 – SSA Delegated Building Expenses – FY 2010
  Delegated       Repair &        Rental of        Real        Protection    Other       Operations &     General &      Depreciation   Total Cost
SSA Buildings     Alteration       Space          Estate                                 Maintenance    Administrative      Cost
                     Cost                          Tax                                      Cost            Cost


ALTMEYER             $23,428               $0      $2,313            $857     $2,604           $2,737        $187,632         $12,321      $231,892
BLDG, MD
ANNEX                 21,187                0       2,309               0     22,318            4,085         293,973       1,517,281      1,861,153
BLDG, MD
EAST BLDG -            5,130                0              0            0     36,323             212          245,578         842,082      1,129,325
HIGH, MD
EAST BLDG -            4,803                0              0            0      5,060             214            59,367              2         69,446
LOW, MD
FEDERAL                     0               0              0            0     43,450                0         256,139         922,191      1,221,780
BUILDING, PA
FRANK              (242,193)                0              0            0     70,735                0            5,283      1,124,060       957,885
HAGEL
FEDERAL
BUILDING, CA
H                           0               0              0            0      3,814             625            23,217      1,395,692      1,423,348
WASHINGTON
CENTER, IL
JOSEPH P.            724,786                0              0        4,738     15,356           93,431        1,843,929      5,521,947      8,204,187
ADDABBO FB,
NY
MIDATLANTIC           24,271                0       2,500               0     49,385                0         446,064         847,213      1,369,433
SOCIAL SEC.
CNTR, PA
OPERATIONS            45,464                0              0            0     47,833            1,998         561,377       5,246,869      5,903,541
BUILDING/
ROBERT
BALL, MD
SECURITY                    0      13,725,782              0            0            0              0         663,793              15     14,389,590
WEST BLDG,
MD
SSA METRO             10,059                0       3,001               0     59,746        (242,322)                0      5,372,802      5,203,286
WEST, MD
SUPPLY                 5,509                0              0            0      5,744             229            67,636        208,164       287,282
BLDG, MD
UTILITY                2,255                0       2,975               0      2,282               79           44,841        394,733       447,165
BLDG-N
COMPC, MD
WEST BLDG –            7,542                0       2,333               0      8,699            2,523         124,292         229,779       375,168
HIGH, MD
WEST BLDG -            3,101                0              0            0      2,521            1,443           41,624              1         48,690
LOW, MD
WOODLAWN                    0               0       2,277               0      6,358               55           15,028              1         23,719
CHILD CARE
CENTER, MD
WOODLAWN              26,565                0              0            0     19,831             807          277,460       2,033,415      2,358,078
COMPUTER
BLDG, MD
FY 2010             $661,907      $13,725,782     $17,708          $5,595   $402,059       ($133,884)       $5,157,233    $25,668,568    $45,504,968
Delegated
Buildings
Rental Costs
O&M Costs for Delegated Buildings Paid by SSA                                                                                            $58,992,354

Total Costs both paid to GSA and Paid Separately by SSA                                                                                 $104,497,322




      MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                                     L-4
         SSA Delegated Buildings Expenses – FY 2011
                                                 Table L5 – SSA Delegated Building Expenses – FY 2011
Delegated SSA      Repair &        Rental of       Real        Protection    Other       Operations       General &      Depreciation        Total Cost
  Buildings        Alteration       Space         Estate                                      &         Administrative      Cost
                      Cost                         Tax                                   Maintenance        Cost
                                                                                            Cost


ALTMEYER             $17,649                $0            $0         $816     $12,059        $22,264          $125,222        $253,067            $431,077
BLDG, MD
ANNEX BLDG,           20,494                 0             0          351      18,833         34,308           176,152       1,517,282            1,767,420
MD
EAST BLDG -            4,961                 0             0        2,520        4,503         7,374            46,460         842,086             907,904
HIGH, MD
EAST BLDG -            4,669                 0             0        1,581        4,272         7,145            42,331                  0           59,998
LOW, MD
FEDERAL                  807                 0             0            0     378,209            504           896,026         928,158            2,203,704
BUILDING, PA
FRANK HAGEL          120,948                 0             0            0     278,389        (95,097)          320,818       1,175,382            1,800,440
FEDERAL
BUILDING, CA
H                        271                 0       3,000          4,243            0        36,570           227,939       1,217,627            1,489,650
WASHINGTON
CENTER, IL
JOSEPH P.            541,224                 0             0            0     789,424              0         1,577,667       5,194,058            8,102,373
ADDABBO FB,
NY
MIDATLANTIC           15,295                 0             0            0     190,982         61,542           299,597         830,932            1,398,348
SOCIAL SEC.
CNTR, PA
OPERATIONS            43,983                 0       3,487          9,945      40,353         67,166           394,132       5,235,452            5,794,518
BUILDING/
ROBERT BALL,
MD
SECURITY                    0      13,714,009              0            0            0             0           897,217              12         14,611,238
WEST BLDG,
MD
SSA METRO              4,722                 0             0        1,917        7,576      (306,290)            1,444       2,451,634            2,161,003
WEST, MD
SUPPLY BLDG,           5,682                 0             0            0        5,124         8,411            45,754         305,390             370,361
MD
UTILITY BLDG-          2,178                 0             0            0        1,943         3,104            17,227         396,850             421,302
N COMPC, MD
WEST BLDG –            7,887                 0             0            0        7,361        14,460            70,611         229,776             330,095
HIGH, MD
WEST BLDG -            2,391                 0       3,360              0        2,108         4,561            28,938                  0           41,358
LOW, MD
WOODLAWN             146,397                 0             0           99      12,706            889           455,669           3,682             619,442
CHILD CARE
CENTER, MD
WOODLAWN              26,090                 0             0            0      24,980         32,572           198,445         329,882             611,969
COMPUTER
BLDG, MD
FY 2011             $965,648      $13,714,009       $9,847        $21,472   $1,778,822     ($100,517)       $5,821,649     $20,911,270        $43,122,200
Delegated
Buildings Rental
Costs
O&M Costs for Delegated Buildings Paid by SSA                                                                                                 $87,920,804
Total Costs both paid to GSA and Paid Separately by SSA                                                                                      $131,043,004




         MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                                      L-5
 GSA Rent on the Web Bill Page                                                                             Page 1 of 10




                                                                                                     Appendix M

Sample Rent on the Web Bills
                                   Rent on the Web (ROW)
 Page Number: 2                                     Bill For: September 2011                         Bill No:    11259221
 Agency: 28 SOCIAL SECURITY ADMN
 Agency Bureau Code: 2804 SSA
 Agency Location Code: 28040001


                                                                    Charge             Amount Due                  Year To
                                                                     Basis              (Monthly)                     Date

 1.   Shell Rental Rate
      a. General                                                28,994,303     $38,696,841.78             $462,171,025.41
      b. Warehouse                                                 703,332        $390,204.53               $4,691,167.28
      c. Unique                                                     12,427          $6,804.14                  $13,608.28
 2.   Amortized Tenant Improvement Used / General               11,839,427      $4,351,112.48              $51,740,412.20
 3.   Operating Costs                                           27,811,227     $11,024,614.78             $131,033,527.49
 4.   Real Estate Taxes                                                           $989,680.90              $12,077,145.07


 A.   Market Rent SubTotal                                      29,710,062     $55,459,258.61             $661,726,885.73

 5.  Amortized Tenant Improvement Used / Customization          10,474,986        $780,196.69               $9,235,763.05
 6.  GSA-Installed Building Improvements                                              $370.22                   $6,304.32
 7.  Building Security Features
     d. Building Specific Amortized Capital                      2,869,223            $43,445.37                $493,280.58
 9. Parking
     a. Structured (number of spaces)                                7,118        $210,225.09               $2,513,630.82
     b. Surface (number of spaces)                                  56,060        $156,477.77               $1,840,995.17
 11. PBS Fee                                                    20,231,716      $2,916,211.44              $34,689,287.76

 B.   Agency Rent SubTotal                                                      $4,106,926.58              $48,779,261.70

 12. Pro Rata Joint Use Charges
     a. Building Amenities                                         229,131        $418,979.68               $5,220,940.57
     b. Structured Parking                                           60.36          $6,651.64                  $80,326.69
     c. Surface Parking                                             376.85          $6,515.95                  $86,068.75

 C.   Joint Use SubTotal                                                          $432,147.27               $5,387,336.01

 D.   Total Monthly Rent (A+B+C)                                               $59,998,332.46             $715,893,483.44

 14. Billing Adjustments & Corrections
     a. Current Year                                                                                       $20,720,362.60
        Late activation of OA AMA00902 back billing   for
        08/2011                                                                     $7,305.59
        201107 REXUS Lease Payment Update                                         ($13,785.79)
        201108 REXUS Lease Payment Update                                         ($44,532.12)
        201108 Tax Escalation                                                   $1,369,065.07
        201104 Late Activation                                                     ($3,564.39)
        201105 Late Activation                                                     ($3,564.39)
        201106 Late Activation                                                     ($4,505.59)
        201107 Late Activation                                                     ($5,007.79)
        201108 Late Activation                                                     $21,825.54
        201108 Broker Contract Commission Credit                                  ($44,026.77)
        201109 Broker Contract Commission Credit                                 ($116,993.86)
        Late activation of OA AMA03250 back billing   for
        08/2011                                                                         $27,316.63
        201106 REXUS Lease Payment Update                                             ($17,226.65)
        201106 Broker Contract Commission Credit                                       ($3,405.10)
        201107 Broker Contract Commission Credit                                      ($32,837.70)
        Late activation of OA AMA03272 back billing   for
        06/2011                                                                       $10,843.60
        Late activation of OA AMA03272 back billing   for
        07/2011                                                                       $10,843.60
        Late activation of OA AMA03272 back billing   for
        08/2011                                                                       $10,843.60
        201109 Rent Estimate                                                           ($927.81)
        Late activation of OA ANY02958 back billing   for

                       Property of the United States Government - Official Use Only




MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                                               M-1

 http://web09.pbs.gsa.gov/ROW/Search/RowBills.aspx?Itemnum=OPAC1109&Accnt_cod...                                 9/21/2011
GSA Rent on the Web Bill Page                                                                     Page 2 of 10




                                     Rent on the Web (ROW)
    Page Number: 3                                     Bill For: September 2011                  Bill No:
                                                       11259221
    Agency: 28 SOCIAL
    SECURITY ADMN Agency
    Bureau Code: 2804
    SSA Agency Location
    Code: 28040001


                                                               Charge             Amount Due          Year To
                                                                Basis              (Monthly)             Date

   06/2011                                                                         $47,605.99
   Late activation of OA ANY02958 back   billing for
   07/2011                                                                         $47,605.99
   Late activation of OA ANY02958 back   billing for                               $47,605.99
   08/2011
   Late activation of OA ANY06731 back   billing for                              $107,763.39
   07/2011
   Late activation of OA ANY06731 back   billing for
   08/2011                                                                        $107,763.39
   201107 Tax Escalation                                                           $65,900.76
   201109 Tax Escalation                                                          $353,939.76
   201105 REXUS Lease Payment Update                                              ($19,160.24)
   201103 REXUS Lease Payment Update                                               ($8,050.98)
   201104 REXUS Lease Payment Update                                              ($19,434.00)
   Late activation of OA APR00798 back   billing for
   07/2011                                                                         $17,478.54
   Late activation of OA APR00798 back   billing for                               $17,478.54
   08/2011
   201109 Operating Cost Escalation                                                 $3,148.67
   Late activation of OA APA01052 back   billing for
   08/2011                                                                         $19,224.44
   Late activation of OA APA04335 back   billing for                               $74,572.15
   06/2011
   Late activation of OA APA04335 back   billing for                               $74,572.15
   07/2011
   Late activation of OA APA04335 back   billing for                               $74,572.15
   08/2011
   201102 REXUS Lease Payment Update                                                $4,304.01
   Late activation of OA AAL00091 back   billing for
   08/2011                                                                          $1,313.20
   Late activation of OA AAL01671 back   billing for                               $10,817.92
   05/2011
   Late activation of OA AAL01671 back   billing for                               $10,817.92
   06/2011
   Late activation of OA AAL01671 back   billing for                               $10,817.92
   07/2011
   Late activation of OA AAL01671 back   billing for
   08/2011                                                                         $10,817.92
   201109 REXUS Lease Payment Update                                              $633,537.55
   201010 REXUS Lease Payment Update                                                  $171.45
   201011 REXUS Lease Payment Update                                                  $171.45
   201012 REXUS Lease Payment Update                                                  $171.45
   201101 REXUS Lease Payment Update                                                  $171.45
   Late activation of OA AFL05340 back   billing for
   05/2011                                                                         $25,154.38
   Late activation of OA AFL05340 back   billing for                               $25,154.38
   06/2011
   Late activation of OA AFL05340 back   billing for                               $25,154.38
   07/2011
   Late activation of OA AFL05340 back   billing for                               $25,154.38
   08/2011
   Late activation of OA AFL05274 back   billing for                               $59,110.92
   02/2011
   Late activation of OA AFL05274 back   billing for                               $59,110.92
   03/2011
   Late activation of OA AFL05274 back   billing for                               $59,110.92
   04/2011


                           Property of the United States Government - Official Use Only




   MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                      M-2
GSA Rent on the Web Bill Page                                                                    Page 3 of 10




                                     Rent on the Web (ROW)
    Page Number: 4                                      Bill For: September 2011                Bill No:
                                                        11259221
    Agency: 28 SOCIAL
    SECURITY ADMN Agency
    Bureau Code: 2804
    SSA Agency Location
    Code: 28040001


                                                                 Charge            Amount Due              Year To
                                                                  Basis             (Monthly)               Date

    Late activation of OA AFL05274 back   billing for
    05/2011                                                                        $59,110.92
    Late activation of OA AFL05274 back   billing for
    06/2011                                                                        $59,110.92
    Late activation of OA AFL05274 back   billing for
    07/2011                                                                        $59,110.92
    Late activation of OA AFL05274 back   billing for
    08/2011                                                                        $59,110.92
    201010 Late Activation                                                          $1,624.51
    201011 Late Activation                                                          $1,624.51
    201012 Late Activation                                                          $1,624.51
    201101 Late Activation                                                          $2,783.63
    201102 Late Activation                                                          $2,783.63
    201103 Late Activation                                                          $2,783.63
    Late activation of OA ANC02653 back   billing for
    06/2011                                                                        $42,162.69
    Late activation of OA ANC02653 back   billing for
    07/2011                                                                        $42,162.69
    Late activation of OA ANC02653 back   billing for
    08/2011                                                                        $42,162.69
    Late activation of OA ANC02619 back   billing for
    08/2011                                                                         $6,255.07
    201010 Operating Cost Escalation                                                   $73.25
    201011 Operating Cost Escalation                                                   $73.25
    201012 Operating Cost Escalation                                                   $73.25
    201101 Operating Cost Escalation                                                   $73.25
    201102 Operating Cost Escalation                                                   $73.25
    201103 Operating Cost Escalation                                                   $73.25
    201104 Operating Cost Escalation                                                   $73.25
    201105 Operating Cost Escalation                                                   $73.25
    201106 Operating Cost Escalation                                                  $120.90
    201107 Operating Cost Escalation                                                  $120.90
    Late activation of OA ASC00036 back   billing for
    08/2011                                                                        $10,854.92
    Late activation of OA ASC00038 back   billing for
    03/2011                                                                         $8,983.92
    Late activation of OA ASC00038 back   billing for
    04/2011                                                                         $8,983.92
    Late activation of OA ASC00038 back   billing for
    05/2011                                                                         $8,983.92
    Late activation of OA ASC00076 back   billing for
    07/2011                                                                         $1,069.22
    Late activation of OA ASC00076 back   billing for
    08/2011                                                                         $1,069.22
    Late activation of OA ASC00077 back   billing for
    07/2011                                                                        $12,230.13
    Late activation of OA ASC00077 back   billing for
    08/2011                                                                        $12,230.13
    Late activation of OA ATN00116 back   billing for
    06/2011                                                                        $25,919.02
    Late activation of OA ATN00116 back   billing for
    07/2011                                                                        $25,919.02
    Late activation of OA ATN00116 back   billing for
    08/2011                                                                        $25,919.02
    Late activation of OA ATN00110 back   billing for
    07/2011                                                                         $8,293.05
    Late activation of OA ATN00110 back   billing for


                           Property of the United States Government - Official Use Only




   MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                     M-3
GSA Rent on the Web Bill Page                                                                              Page 4 of 10




                                     Rent on the Web (ROW)
    Page Number: 5                                     Bill For: September 2011                           Bill No:
                                                       11259221
    Agency: 28 SOCIAL
    SECURITY ADMN Agency
    Bureau Code: 2804
    SSA Agency Location
    Code: 28040001


                                                                 Charge                    Amount Due            Year To
                                                                  Basis                     (Monthly)               Date

   08/2011                                                                                $8,293.05
   201109 Claim                                                                       $4,750,000.00
   Late activation of OA AIL05747 back   billing for
   07/2011                                                                                  $3,329.19
   Late activation of OA AIL05747 back   billing for
   08/2011                                                                                  $3,329.19
   Late activation of OA AIL04035 back   billing for
   07/2011                                                                                  $9,038.48
   Late activation of OA AMI04911 back   billing for
   08/2011                                                                                 $11,887.16
   Late activation of OA AOH05084 back   billing for
   08/2011                                                                                 $23,070.64
   Late activation of OA AWI00109 back   billing for
   08/2011                                                                                  $8,572.45
   201011 Tax Escalation                                                                    $6,074.11
   201109 Other                                                                            $15,947.66
   201106 Tax Escalation                                                                   $68,924.46
   Late activation of OA AMO05293 back   billing for
   07/2011                                                                                 $36,044.55
   Late activation of OA AMO05293 back   billing for
   08/2011                                                                                 $36,044.55
   201102 Tax Escalation                                                                    $5,624.42
   Late activation of OA ALA01137 back   billing for
   08/2011                                                                                  $1,593.26
   201109 Incorrect Square Footage                                                        ($224,160.66)
   Late activation of OA ATX01463 back   billing for
   08/2011                                                                                 $11,380.63
   Late activation of OA ATX06421 back   billing for
   08/2011                                                                                   $3,508.92
   201109 Recovery Act Swing Space                                                        ($131,063.65)
   Late activation of OA ASD02042 back   billing for
   07/2011                                                                                 $31,664.62
   Late activation of OA ASD02042 back   billing for
   08/2011                                                                                 $31,664.62
   Late activation of OA AUT00068 back   billing for
   05/2011                                                                                  $4,899.71
   Late activation of OA AUT00068 back   billing for
   06/2011                                                                                  $4,899.71
   Late activation of OA AUT00068 back   billing for
   07/2011                                                                                  $4,899.71
   Late activation of OA AUT00068 back   billing for
   08/2011                                                                                  $4,899.71
   Late activation of OA AWY01719 back   billing for
   07/2011                                                                                 $15,981.28
   Late activation of OA AWY01719 back   billing for
   08/2011                                                                                 $15,981.28
   Late activation of OA ACA10083 back   billing for
   01/2011                                                                                 $22,591.53
   Late activation of OA ACA10083 back   billing for
   02/2011                                                                                 $22,591.53
   Late activation of OA ACA10083 back   billing for
   03/2011                                                                                 $22,591.53
   Late activation of OA ACA10083 back   billing for
   04/2011                                                                                 $22,591.53
   Late activation of OA ACA10083 back   billing for
   05/2011                                                                                 $22,591.53
   Late activation of OA ACA10083 back   billing for


                           Property of the United States Government - Official Use Only




   MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                               M-4
GSA Rent on the Web Bill Page                                                                              Page 5 of 10




                                     Rent on the Web (ROW)
    Page Number: 6                                    Bill For: September 2011                            Bill No:
                                                      11259221
    Agency: 28 SOCIAL
    SECURITY ADMN Agency
    Bureau Code: 2804
    SSA Agency Location
    Code: 28040001


                                                                      Charge              Amount Due                 Year To
                                                                       Basis               (Monthly)                    Date

           06/2011                                                                         $22,591.53
           Late activation of OA ACA10083 back billing for
           07/2011                                                                         $22,591.53
           Late activation of OA ACA10083 back billing for
           08/2011                                                                         $22,591.53
           Late activation of OA ACA10083 back billing for
           10/2010                                                                         $22,591.53
           Late activation of OA ACA10083 back billing for
           11/2010                                                                         $22,591.53
           Late activation of OA ACA10083 back billing for
           12/2010                                                                         $22,591.53
           Late activation of OA ACA09276 back billing for
           07/2011                                                                         $21,650.83
           Late activation of OA ACA09276 back billing for
           08/2011                                                                          $21,650.83
           201103 Vacated Space - Rent Credit                                             ($151,015.85)
           Late activation of OA ACA09643 back billing for
           08/2011                                                                          $7,911.68
           201104 Tax Escalation                                                            $2,975.44
           Late activation of OA AMP00369 back billing for
           08/2011                                                                          $10,994.25
           201010 Reconciliation of Tenant Improvements                                        $569.55
           201011 Reconciliation of Tenant Improvements                                        $569.55
           201012 Reconciliation of Tenant Improvements                                        $569.55
           201101 Reconciliation of Tenant Improvements                                        $569.55
           201102 Reconciliation of Tenant Improvements                                        $569.55
           201103 Reconciliation of Tenant Improvements                                        $569.55
           201104 Reconciliation of Tenant Improvements                                        $569.55
           201105 Reconciliation of Tenant Improvements                                        $569.55
           201106 Reconciliation of Tenant Improvements                                        $569.55
           201107 Reconciliation of Tenant Improvements                                        $569.55
           201108 Reconciliation of Tenant Improvements                                        $569.55
           201106 Other                                                                   ($232,552.60)
           Late activation of OA AMD05355 back billing for
           01/2011                                                                         $18,180.72
           Late activation of OA AMD05355 back billing for
           02/2011                                                                         $18,180.72
           Late activation of OA AMD05355 back billing for
           03/2011                                                                         $18,180.72
           Late activation of OA AMD05355 back billing for
           04/2011                                                                         $18,180.72
           Late activation of OA AMD05355 back billing for
           05/2011                                                                         $18,180.72
           Late activation of OA AMD05355 back billing for
           06/2011                                                                         $18,180.72
           Late activation of OA AMD05355 back billing for
           07/2011                                                                         $18,180.72
           Late activation of OA AMD05355 back billing for
           08/2011                                                                         $18,180.72
           Late activation of OA AMD05355 back billing for
           10/2010                                                                         $18,180.72
           Late activation of OA AMD05355 back billing for
           11/2010                                                                         $18,180.72
           Late activation of OA AMD05355 back billing for
           12/2010                                                                          $18,180.72
           201108 Other                                                                   ($869,945.98)
           Late activation of OA AVA07396 back billing for


                           Property of the United States Government - Official Use Only




   MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                               M-5
GSA Rent on the Web Bill Page                                                                           Page 6 of 10




                                     Rent on the Web (ROW)
    Page Number: 7                                    Bill For: September 2011                         Bill No:
                                                      11259221
    Agency: 28 SOCIAL
    SECURITY ADMN Agency
    Bureau Code: 2804
    SSA Agency Location
    Code: 28040001


                                                                     Charge               Amount Due              Year To
                                                                      Basis                (Monthly)                 Date

         01/2011                                                                          $24,056.94
         Late activation of OA   AVA07396 back billing for
         02/2011                                                                          $24,056.94
         Late activation of OA   AVA07396 back billing for
         03/2011                                                                          $24,056.94
         Late activation of OA   AVA07396 back billing for
         04/2011                                                                          $24,056.94
         Late activation of OA   AVA07396 back billing for
         05/2011                                                                          $24,056.94
         Late activation of OA   AVA07396 back billing for
         06/2011                                                                          $24,056.94
         Late activation of OA   AVA07396 back billing for
         07/2011                                                                          $24,056.94
         Late activation of OA   AVA07396 back billing for
         08/2011                                                                          $24,056.94
         Late activation of OA   AVA07396 back billing for
         10/2010                                                                          $24,056.94
         Late activation of OA   AVA07396 back billing for
         11/2010                                                                          $24,056.94
         Late activation of OA   AVA07396 back billing for
         12/2010                                                                          $24,056.94
         Late activation of OA   AVA07397 back billing for
         01/2011                                                                           $6,283.84
         Late activation of OA   AVA07397 back billing for
         02/2011                                                                           $6,283.84
         Late activation of OA   AVA07397 back billing for
         03/2011                                                                           $6,283.84
         Late activation of OA   AVA07397 back billing for
         04/2011                                                                           $6,283.84
         Late activation of OA   AVA07397 back billing for
         05/2011                                                                           $6,283.84
         Late activation of OA   AVA07397 back billing for
         06/2011                                                                           $6,283.84
         Late activation of OA   AVA07397 back billing for
         07/2011                                                                           $6,283.84
         Late activation of OA   AVA07397 back billing for
         08/2011                                                                           $6,283.84
         Late activation of OA   AVA07397 back billing for
         10/2010                                                                           $6,283.84
         Late activation of OA   AVA07397 back billing for
         11/2010                                                                           $6,283.84
         Late activation of OA   AVA07397 back billing for
         12/2010                                                                           $6,283.84
         201103 Tax Escalation                                                             $2,736.25
         Late activation of OA   AVA07377 back billing for
         01/2011                                                                          $20,577.34
         Late activation of OA   AVA07377 back billing for
         02/2011                                                                          $20,577.34
         Late activation of OA   AVA07377 back billing for
         03/2011                                                                          $20,577.34
         Late activation of OA   AVA07377 back billing for
         04/2011                                                                          $20,577.34
         Late activation of OA   AVA07377 back billing for
         05/2011                                                                          $20,577.34
         Late activation of OA   AVA07377 back billing for
         06/2011                                                                          $20,577.34
         Late activation of OA   AVA07377 back billing for


                           Property of the United States Government - Official Use Only




   MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                            M-6
GSA Rent on the Web Bill Page                                                                              Page 7 of 10




                                     Rent on the Web (ROW)
    Page Number: 8                                    Bill For: September 2011                            Bill No:
                                                      11259221
    Agency: 28 SOCIAL
    SECURITY ADMN Agency
    Bureau Code: 2804
    SSA Agency Location
    Code: 28040001

                                                                      Charge              Amount Due                     Year To
                                                                       Basis               (Monthly)                        Date

           07/2011                                                                         $20,577.34
           Late activation of OA AVA07377 back billing   for
           08/2011                                                                         $20,577.34
           Late activation of OA AVA07377 back billing   for
           10/2010                                                                         $20,577.34
           Late activation of OA AVA07377 back billing   for
           11/2010                                                                         $20,577.34
           Late activation of OA AVA07377 back billing   for
           12/2010                                                                         $20,577.34
        b. Prior Year                                                                                                $5,474,568.51
           201008 REXUS Lease Payment Update                                                   $171.45
           201009 REXUS Lease Payment Update                                                   $171.45
           201005 Late Activation                                                            $2,938.27
           201006 Late Activation                                                            $2,938.27
           201007 Late Activation                                                               $86.10
           201008 Late Activation                                                               $76.83
           201009 Late Activation                                                               $76.83
           201006 Operating Cost Escalation                                                     $73.25
           201007 Operating Cost Escalation                                                     $73.25
           201008 Operating Cost Escalation                                                     $73.25
           201009 Operating Cost Escalation                                                     $73.25
           200910 Late Activation                                                              ($15.28)
           200911 Late Activation                                                              ($15.28)
           200912 Late Activation                                                              ($15.28)
           201001 Late Activation                                                              ($15.28)
           201002 Late Activation                                                              ($15.28)
           201003 Late Activation                                                              ($15.28)
           201004 Late Activation                                                              ($15.28)
           201009 Incorrect Square Footage                                                ($217,565.11)
           200908 Broker Contract Commission Credit                                        ($12,750.98)
           200909 Broker Contract Commission Credit                                        ($12,750.98)
           200910 Broker Contract Commission Credit                                        ($12,750.98)
           200911 Broker Contract Commission Credit                                        ($12,750.99)
           Late activation of OA ACA10083 back billing   for
           01/2010                                                                         $22,591.53
           Late activation of OA ACA10083 back billing   for
           02/2010                                                                         $22,591.53
           Late activation of OA ACA10083 back billing   for
           03/2010                                                                         $22,591.53
           Late activation of OA ACA10083 back billing   for
           04/2010                                                                         $22,591.53
           Late activation of OA ACA10083 back billing   for
           05/2010                                                                         $22,591.53
           Late activation of OA ACA10083 back billing   for
           06/2010                                                                         $22,591.53
           Late activation of OA ACA10083 back billing   for
           07/2010                                                                         $22,591.53
           Late activation of OA ACA10083 back billing   for
           08/2009                                                                         $22,591.53
           Late activation of OA ACA10083 back billing   for
           08/2010                                                                         $22,591.53
           Late activation of OA ACA10083 back billing   for
           09/2009                                                                         $22,591.53
           Late activation of OA ACA10083 back billing   for
           09/2010                                                                         $22,591.53
           Late activation of OA ACA10083 back billing   for
           10/2009                                                                         $22,591.53


                           Property of the United States Government - Official Use Only




   MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                               M-7
GSA Rent on the Web Bill Page                                                                    Page 8 of 10




                                      Rent on the Web (ROW)
    Page Number: 9                                      Bill For: September 2011                Bill No:
                                                        11259221
    Agency: 28 SOCIAL
    SECURITY ADMN Agency
    Bureau Code: 2804
    SSA Agency Location
    Code: 28040001

                                                                 Charge            Amount Due        Year To
                                                                 Basis             (Monthly)             Date

    Late activation of OA   ACA10083 back billing for
    11/2009                                                                        $22,591.53
    Late activation of OA   ACA10083 back billing for
    12/2009                                                                        $22,591.53
    200911 Reconciliation   of Tenant Improvements                                    $569.55
    200912 Reconciliation   of Tenant Improvements                                    $569.55
    201001 Reconciliation   of Tenant Improvements                                    $569.55
    201002 Reconciliation   of Tenant Improvements                                    $569.55
    201003 Reconciliation   of Tenant Improvements                                    $569.55
    201004 Reconciliation   of Tenant Improvements                                    $569.55
    201005 Reconciliation   of Tenant Improvements                                    $569.55
    201006 Reconciliation   of Tenant Improvements                                    $569.55
    201007 Reconciliation   of Tenant Improvements                                    $569.55
    201008 Reconciliation   of Tenant Improvements                                    $569.55
    201009 Reconciliation   of Tenant Improvements                                    $569.55
    Late activation of OA   AVA07396 back billing for
    01/2009                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    01/2010                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    02/2009                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    02/2010                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    03/2009                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    03/2010                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    04/2008                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    04/2009                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    04/2010                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    05/2008                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    05/2009                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    05/2010                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    06/2008                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    06/2009                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    06/2010                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    07/2008                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    07/2009                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    07/2010                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    08/2008                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    08/2009                                                                        $24,056.94
    Late activation of OA   AVA07396 back billing for
    08/2010                                                                        $24,056.94


                            Property of the United States Government - Official Use Only




   MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                     M-8
GSA Rent on the Web Bill Page                                                                     Page 9 of 10




                                      Rent on the Web (ROW)
    Page Number: 10                                     Bill For: September 2011                 Bill No:
                                                        11259221
    Agency: 28 SOCIAL
    SECURITY ADMN Agency
    Bureau Code: 2804
    SSA Agency Location
    Code: 28040001

                                                                 Charge            Amount Due         Year To
                                                                 Basis              (Monthly)             Date

    Late activation of OA   AVA07396 back billing for
    09/2008                                                                         $24,056.94
    Late activation of OA   AVA07396 back billing for
    09/2009                                                                         $24,056.94
    Late activation of OA   AVA07396 back billing for
    09/2010                                                                         $24,056.94
    Late activation of OA   AVA07396 back billing for
    10/2008                                                                         $24,056.94
    Late activation of OA   AVA07396 back billing for
    10/2009                                                                         $24,056.94
    Late activation of OA   AVA07396 back billing for
    11/2008                                                                         $24,056.94
    Late activation of OA   AVA07396 back billing for
    11/2009                                                                         $24,056.94
    Late activation of OA   AVA07396 back billing for
    12/2008                                                                         $24,056.94
    Late activation of OA   AVA07396 back billing for
    12/2009                                                                         $24,056.94
    200808 Operating Cost   Escalation                                               $284.67
    Late activation of OA   AVA07397 back billing for
    01/2009                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    01/2010                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    02/2009                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    02/2010                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    03/2009                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    03/2010                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    04/2008                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    04/2009                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    04/2010                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    05/2008                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    05/2009                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    05/2010                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    06/2008                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    06/2009                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    06/2010                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    07/2008                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    07/2009                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    07/2010                                                                         $6,283.84
    Late activation of OA   AVA07397 back billing for
    08/2008                                                                         $6,283.84


                            Property of the United States Government - Official Use Only




   MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                      M-9
GSA Rent on the Web Bill Page                                                                           Page 10 of 10




                                     Rent on the Web (ROW)
    Page Number: 11                                    Bill For: September 2011                        Bill No:
                                                       11259221
    Agency: 28 SOCIAL
    SECURITY ADMN Agency
    Bureau Code: 2804
    SSA Agency Location
    Code: 28040001




                                                                       Charge             Amount Due                   Year To
                                                                       Basis              (Monthly)                      Date

           Late activation of OA AVA07397   back billing for
           08/2009                                                                    $6,283.84
           Late activation of OA AVA07397   back billing for
           08/2010                                                                    $6,283.84
           Late activation of OA AVA07397   back billing for
           09/2008                                                                    $6,283.84
           Late activation of OA AVA07397   back billing for
           09/2009                                                                    $6,283.84
           Late activation of OA AVA07397   back billing for
           09/2010                                                                    $6,283.84
           Late activation of OA AVA07397   back billing for
           10/2008                                                                    $6,283.84
           Late activation of OA AVA07397   back billing for
           10/2009                                                                    $6,283.84
           Late activation of OA AVA07397   back billing for
           11/2008                                                                    $6,283.84
           Late activation of OA AVA07397   back billing for
           11/2009                                                                    $6,283.84
           Late activation of OA AVA07397   back billing for
           12/2008                                                                    $6,283.84
           Late activation of OA AVA07397   back billing for
           12/2009                                                                    $6,283.84
           Late activation of OA AVA07377   back billing for
           06/2010                                                                   $20,577.34
           Late activation of OA AVA07377   back billing for
           07/2010                                                                   $20,577.34
           Late activation of OA AVA07377   back billing for
           08/2010                                                                   $20,577.34
           Late activation of OA AVA07377   back billing for
           09/2010                                                                    $20,577.34
        e. Trust Fund Agency Adjustment                                           ($4,469,348.33)         ($58,369,419.29)

   E.   Adjustments SubTotal                                                      $4,850,694.20           ($32,174,488.18)

   F.   Total Rent Bill (D+E) (Object Class 23.1)                                 $64,849,026.66          $683,718,995.26

   15. Antenna
       a. Antenna Charges                                                              $20,874.97             $250,137.14
       b. Adjustments - Current Year                                                      $141.73               $2,276.02
       c. Adjustments - Prior Year                                                      $1,029.55

   G.   Total Antenna Bill (Object Class 25.3)                                        $21,016.70                  $253,442.71

   H.   Total Reimbursable Services Bill (Object Class 25.3)                                 $0.00                     $0.00

   I.   Total PBS Bill (F+G+H)                                                     $64,870,043.36         $683,972,437.97




                           Property of the United States Government - Official Use Only




   MoU Between GSA and SSA for Space and Service (A-15-13-23043)                                           M-10
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
